<html>
<title> - PAST, PRESENT AND FUTURE: A HISTORIC AND PERSONAL REFLECTION ON AMERICAN IMMIGRATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
    PAST, PRESENT AND FUTURE: A HISTORIC AND PERSONAL REFLECTION ON 
                          AMERICAN IMMIGRATION
=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2007

                               __________

                           Serial No. 110-15

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

34-418 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                        Ur Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 30, 2007

                             OPENING REMARK

                                                                   Page
Ms. Cynthia Garrett, Superintendent of Ellis Island..............     1

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     2
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     7
The Honorable Luis V. Gutierrez, a Representative in Congress 
  from the State of Illinois, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     9
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................    11
The Honorable Linda Sanchez, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................    13

                               WITNESSES

Mr. David V. Aguilar, Chief, Office of Border Patrol, Department 
  of Homeland Security
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
Mr. Igor V. Timofeyev, Director of Immigration Policy and Special 
  Advisor for Refugee and Asylum Affairs, Policy Directorate, 
  U.S. Department of Homeland Security
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
Mr. Daniel J. Tichenor, Ph.D., Associate Professor in the 
  Department of Political Science, Rutgers University
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Mr. Dowell Myers, Ph.D., Professor of Urban Planning and 
  Demography, University of Southern California
  Oral Testimony.................................................    58
  Prepared Statement.............................................    60
Mr. Dan Siciliano, Executive Director of the Program in Law, 
  Economics, and Business, Stanford Law School
  Oral Testimony.................................................    69
  Prepared Statement.............................................    71
Mr. Bruce DeCell, member of the 9/11 Victims for a Secure America 
  (reading the prepared statement of Michael W. Cutler, former 
  Senior Special Agent of the INS, Fellow at the Center for 
  Immigration Studies)
  Oral Testimony.................................................    78
  Prepared Statement.............................................    81
Mr. Jack Martin, Special Projects Director, Federation for 
  American Immigration Reform
  Oral Testimony.................................................    85
  Prepared Statement.............................................    87

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     4
Prepared Statement of the Honorable Luis V. Gutierrez, a 
  Representative in Congress from the State of Illinois, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................    10
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    12
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................    15

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Michael Chertoff, Secretary, 
  U.S. Department of Homeland Security...........................   102


    PAST, PRESENT AND FUTURE: A HISTORIC AND PERSONAL REFLECTION ON 
                          AMERICAN IMMIGRATION

                              ----------                              


                         FRIDAY, MARCH 30, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11 a.m., in 
the Ellis Island Immigration Museum, Statute of Liberty and 
Ellis Island National Monuments, Ellis Island, New York, the 
Honorable Zoe Lofgren (Chairwoman of the Subcommittee) 
presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Sanchez, and King.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; Andrea 
Loving, Minority Counsel; Benjamin Staub, Professional Staff 
Member.
    Ms. Lofgren. The hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    Before we begin, I would like to extend our appreciation 
and gratitude to Ms. Cynthia Garrett, the Superintendent of 
Ellis Island, for allowing us to use this wonderful and 
especially meaningful place for our first hearing on 
comprehensive immigration reform. Ms. Garrett would like to say 
a few words before we commence with the hearing.
    Ms. Garrett. Thank you, Members of Congress and honored 
guests. Good morning and welcome to the Statute of Liberty 
National Monument and Ellis Island. On behalf of the National 
Park Service, thank you for bringing your Subcommittee's 
hearing to this historic venue. What better place to reflect on 
American immigration. Between 1892, when the Ellis Island 
Immigration Station opened its doors and 1954 when it was 
closed, over 12 million people started their new lives on this 
small island in New York Harbor. Twelve million people, that's 
a number to reflect on.
    During its peak years of operation, over 70 percent of 
immigrants to this country were processed here. If you haven't 
already done so, look at the magnificent space around us. The 
Great Hall, as this room is called for somewhat obvious 
reasons, is where the immigrants were registered and processed. 
One of the remarkable things you will find at this national 
park is that the sense of history here is very real.
    Imagine how an immigrant might have felt sitting on these 
benches, anxious to begin a whole new life, speaking very 
little English, waiting to be processed, quite possibly with 
all their worldly possessions in a sack at their feet. Imagine 
the sounds echoing through the Great Hall. Hundreds of voices 
in dozens of languages. And think about what brought people 
here, the conditions they were leaving, and their dreams for 
the future.
    As the preeminent symbol of the story of immigration, Ellis 
Island plays a pivotal role in our culture. It brings a very 
human face to our history. The Immigration Station's main 
building was restored and reopened to the public as a museum in 
1990. Since that time, we've had over 25 million visitors. The 
National Park Service uses the power of this very special place 
to engage people in dialogue about the story of immigration and 
the cultural richness of the United States, about the 
continuing debates on immigration policy, and on the 
contribution of immigrants to our society.
    After the hearing, I invite you to explore this wonderful 
museum to feel the exhilaration, the fear, and the hope of the 
men, women, and children who landed here unsure of what turns 
life might take. Listen carefully, you can still hear their 
voices.
    Thank you.
    Ms. Lofgren. Thank you very, very much. And I am honored to 
call to order the Subcommittee for our very first hearing on 
the role of immigration in American society. Since this is a 
congressional hearing, we would ask that people take a moment 
and turn off your cell phones or turn it on vibrate so that we 
don't have that interruption.
    Through this hall and through those doors, our Government 
admitted millions of brave, energetic people to our great 
Nation. After leaving this island, those many optimistic 
millions joined our communities and participated in the great 
kaleidoscope of life in America. In this Great Hall, capable 
officers inspected those who passed through here. They 
controlled the flow and they made the process orderly. This 
room is a visible vestige of a controlled, orderly and fair 
immigration system; in this room today, sit many, many people, 
each of whom is a testament to those times.
    As I look around this hall, and as I consider my own 
family's history, I see the magnificence of America. I see the 
picture of America, a place where there is a constant 
reinvigoration of the American character, a place where the 
values of hard work, optimism, bravery, resilience, and risk-
taking, have forged an exceptional Nation. Immigrants have 
always been part of that process of reinvigoration.
    I was fortunate to have known and loved one of those 
immigrants, my grandfather. Carl Robert Lofgren was a man of 
unbounded enthusiasm. Nearly 100 years ago, when he was 16 
years old, he boarded a ship in Sweden. He spoke not a word of 
English and he didn't have any money, but what he did have was 
fearless optimism. Before he died, he told me that when he 
boarded the ship, he believed that when he got to America he 
would make so much money that he would be able to buy a large 
ranch and become the cowboy he wanted to be. But when his ship 
landed in Boston, he stepped off the boat, a legal immigrant. 
Armed only with his dreams, his work ethic, his optimism, and 
visions of America forged from reading Westerns written in 
Swedish, he made his way by train to Oakland, California. The 
starting was hard, the trip long and demanding. His entry, like 
that of millions of others, was simple, orderly, and legal. And 
as you might guess, my grandfather did not find the streets of 
Oakland paved with gold.
    Undaunted, he rolled with the punches. He met his wife, my 
grandmother. He started a family. He worked hard. Out of 
curiosity, I went to ellisisland.org and typed in my last name. 
And just over a 30-year period, starting in 1892, there were 
120 Lofgrens who did come through these gates, and that was 
just the Lofgrens whose first names began with A. That 
shouldn't be too much of a surprise, for most immigrants at 
that time, this small island in New York Harbor, in the shadow 
of Lady Liberty, was their first stop on a long and determined 
journey to the land of opportunity. And today, 40 percent of 
Americans can trace their roots to an ancestor who was among 
those who landed here.
    Each of us here has our own family's immigration story. 
I've told you mine.
    Today, we're in a grand debate about the role of 
immigration in American society, but most of us agree that the 
immigration that is symbolized by Ellis Island is a process 
that worked. There were challenges to be sure, but by and 
large, it was a process that worked. And that's what we need 
now, and that's why we're here. It's not because people around 
the world still yearn for the hope that has always defined 
America, it's because America needs them in a continual process 
of renewal.
    We are a Nation of immigrants. It is these very people and 
those who came before them who gave life to our Nation's 
enduring promise. That's our history. That's our present. And 
it will be our future. But by no means is it a given. Not if we 
ignore what are legitimate and sincere concerns. From 1892 to 
1954, more than 12 million immigrants entered the United States 
through Ellis Island. Today, we have close to the same number 
of illegal immigrants already in the country. If they come 
forward, work hard, accept responsibility, and the judgment of 
the Nation for breaking the law, will we provide them--not with 
a free ride--but with a fair and well thought out way to 
contribute to our country legally? Will we do the same for 
those who enter our country legally and decide they want to 
stay and keep contributing? Will we enforce the law and will we 
secure our borders, making sure that they are not negligently 
porous, but necessarily protected? Will we always remain 
mindful and sympathetic to the hardworking Americans who have a 
real fear of losing their jobs to those who are willing to work 
for less?
    Will we hold accountable employers who remain willing to 
hire undocumented workers to the detriment of American workers 
and will we demand that those working here assimilate and 
contribute?
    We can and we must reform our immigration system in a 
comprehensive way, to promote a safer, more secure, prosperous 
America. We can and must leave here dedicating ourselves to 
building a rational, reasonable, workable immigration system. A 
comprehensive system. A system that allows us to control our 
borders, to protect our citizens, and a system that allows 
America's economy to continue to expand while making certain 
that our workers get what at the very least they deserve so 
very much, a fair shake. A process that works, that's our 
responsibility.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. I now would like to recognize our 
distinguished Ranking Member of this Subcommittee, and that is 
Mr. Steve King of Iowa, for his opening statement.
    Mr. King.
    Mr. King. Thank you, Madam Chair. I can't thank you enough 
for holding this hearing here at Ellis Island. As I've 
mentioned at the conclusion of our tour, I can't imagine 
learning enough from the witnesses here today to eclipse what 
I've learned in this tour, but it will be a very complimentary 
educational process for this panel and hopefully for the people 
that are here.
    This island is a place of significant historical value and 
not only for America, but for my family in particular. My 
grandmother, Frieda Katrina Johanna Harm entered the United 
States through here at Ellis Island March 26, 1894. She was 4 
years old. She and her family emigrated from the port town of 
Kiel is part of Schleswig-Holstein in Germany on a ship named 
the New York. And interestingly and coincidentally, I today 
represent the United States Congress, the cities in Iowa, 
they're named Schleswig and Holstein. A grandson reflecting 
back here in Ellis Island about how meaningful it is to be here 
and have this sense of history for our Nation.
    My ancestors made a new life in America just like the 
millions of other individuals who have done so throughout the 
years. However, the idea that Ellis Island and the Statue of 
Liberty stand for the premise that the United States should 
welcome every person in the world who wants to come here is 
historically inaccurate. In fact, the Statue of Liberty was 
given to our country by France in 1886, not as a symbol of our 
willingness to accept immigrants, but to celebrate the 
friendship that developed between the United States and the 
French during the Revolutionary War. I question some of the 
architecture that they brought to Washington, D.C., but they 
still were the friends of liberty.
    And the famous Emma Lazarus' poem, ``The New Colossus'' 
often cited as proof that the Statue of Liberty is a beacon for 
open borders was not an original part of the statue. It was 
only added in the early 1900's.
    No country can effectively allow unrestricted immigration. 
Even here at Ellis Island, approximately 250,000 prospective 
immigrations were turned away because they didn't meet the 
immigration standards at the time. We must have an immigration 
and naturalization policy designed to enhance the economic, the 
social, and the cultural well being of the United States of 
America. Every Nation must have that kind of a policy.
    The United States already has the most generous immigration 
policy in the world. Over one million immigrants are legally 
admitted into the United States every year. And that's very 
close to the numbers that we saw as we went through this tour 
on an annual basis.
    According to the Department of Homeland Security 2005 
Yearbook of Immigration Statistics, between 1820 and the year 
2000 nearly 66 million immigrants came to the United States, 
legally; 12 million of those came here through Ellis Island in 
its years of operation between 1892 and 1954. So roughly 66 
million is the cumulative total of all legal immigration 
throughout this country's 200-year history. And last year, the 
Senate passed legislation that would have added that many 
immigrants in just 20 years. Unfortunately, it seems that any 
comprehensive, and I put that in quotes, ``comprehensive 
immigration reform bill,'' as we see in this Congress, will 
have the same unmanageable results. The realities of today's 
immigration policies are not the same as those at any other 
time in America's history.
    For instance, in years past, once an immigrant came to the 
United States, he or she was expected to fully assimilate by 
learning English, foregoing past allegiances and accepting the 
principles of our Constitution. Legally, those principles 
remain today. Immigrants also have relatively little contact 
with their home countries because of the difficulty of 
traveling long distance and communication, and so they 
assimilated more quickly in those years.
    Now immigrants come and go with relative ease. They 
communicate by phone and email with friends and relatives in 
their home countries. We're glad about that. But they are not 
expected as much to learn English. Instead, it's the immigrants 
who demand American citizens change their culture and language. 
While it's true that the United States has often had generally 
welcoming immigration policies, our country has rarely had no 
restrictions. As far back as 1798, Congress passed the Alien 
Enemies Act which allowed hostile aliens to be apprehended, 
restrained and secured and removed from the country during 
times of war, or threatened by a foreign nation. It would be a 
time like this actually.
    And in 1802, the Naturalization Act established that an 
immigrant must be a U.S. resident for 5 years before they can 
become a citizen. Between the 1920's and the 1960's, we had 
relatively little immigration which gave time to assimilate 
earlier immigrants. And it was a calculated policy debated in 
the United States Congress. Unfortunately, in the last several 
decades, the Federal Government has not taken seriously its 
role to enforce its own immigration laws. As a result, it's 
estimated there are between 12 and 20 million illegal 
immigrants in the country today. And not all of those illegal 
immigrants contribute positively to American society. For 
instance, we are all aware as we sit at Ellis Island here today 
that right across the river is the site of the World Trade 
Center, perhaps the most significant symbol of the failings of 
America's immigration laws and policies where 19 foreign 
terrorists murdered over 3,000 innocent Americans.
    Criminal aliens are coming to the United States in record 
numbers. According to an April 2005 GAO study, nearly 28 
percent of all State and Federal prisoners are criminal aliens. 
And further statistical analysis show that 4518 murders were 
committed by criminal aliens in America in 2004 alone. That 
means 25 people were killed by criminal aliens in the United 
States each day if you add the numbers that include the victims 
of negligent homicide which is about 13 a day. Some of the 
victims of criminal aliens include Adrienne Shelley, the 
actress who was murdered by 19-year-old Diego Belco here in New 
York last November; or Houston Police Officer, Rodney Johnson, 
who was murdered execution style by Juan Leonardo Quinterro, 
who snuck back into the United States after being deported to 
Mexico in 1999. These victims were American citizens who 
deserved to be protected by their government's policies, 
including its immigration policies.
    So as we sit here today at Ellis Island we must keep in 
mind our obligation to put forth and maintain a responsible 
immigration policy that assures what is best for America. But I 
would like to just close with this, Madam Chair, and that is 
that I know of no one who is opposed to legal immigration. And 
there's a certain vitality that comes with immigration. We got 
the vitality from the donor countries across the world and you 
can see it here. They had the most to gain and the least to 
lose. They took the risk and they came here and the vitality of 
civilization after civilization contributed to American 
exceptionalism. And I'm looking forward to this dialogue that 
we have and I'm looking forward to continuing on the path of 
enhancing American exceptionalism.
    Thank you, Madam Chair. I yield back.
    Ms. Lofgren. Thank you, Mr. King. And now I'd like to 
recognize the other Members for their opening 5-minute 
statements. Let me first recognize the gentleman from Illinois, 
Congressman Luis Gutierrez.
    Mr. Gutierrez. First, I'd like to say thank you very much, 
Chairwoman Lofgren, for putting together this exceptional 
hearing--I can't think of a better way to begin what I know are 
going to be many hearings under your leadership.
    And thank you, Ranking Member King.
    And I would like to extend my thanks to all of those that 
are coming to testify before us here this morning. It is 
particularly significant that the hearing is being held at 
Ellis Island, in the shadow of the Statue of Liberty and the 
first beacon of freedom seen by countless immigrants seeking 
the American dream.
    I hope that today's hearing will foster a greater 
understanding of the need for comprehensive immigration reform 
and propel a demand for a reform that respects the history of 
welcoming immigrants seeking the American dream and building a 
better future.
    You know Dr. Martin Luther King said that ``the arc of the 
moral universe is long, but it bends toward justice.'' for the 
millions of hardworking immigrants in this country who toiled 
deep in the shadows of our society, where mistreatment and 
abuse run far too rampant, we must continue to ensure that the 
arc bends their way. We must continue to ensure that they, too, 
can realize their hopes and aspirations, and that they, too, 
can have a real shot at the American dream. I'm talking about 
the humble mother who has dreams, who leaves her home and her 
children before dawn each morning to wait for a bus in the 
harsh chill of the Chicago winter so that she can take care of 
someone else's kids, but who knows this work will provide money 
for school supplies and doctors' visits and access to 
opportunities for her children she never thought possible for 
herself.
    I'm talking about the modest dreams of the migrant worker 
who has bloodied and blistered hands and aching muscles, who 
spends 12 hours a day in pesticide-ridden fields so his son can 
1 day realize his dream of going to college.
    It is the same immigrant experience, the same pursuit of 
the American dream that has been the inspiration and motivation 
for immigrants generation after generation in our country. And 
it is our responsibility. It is our solemn obligation to ensure 
that America stays true to its rich heritage of welcoming those 
who seek a better life, that we as a Nation stay true to the 
eloquent and powerful words etched in the base of the Statue of 
Liberty which read: ``I lift my lamp beside the golden door.''
    In the coming months, we face the difficult and very real 
challenges in our effort to achieve comprehensive immigration 
reform, but in the end I am confident we will get there. We 
have no other choice. Because I am confident in the will and 
the spirit of the people who are passionate about this issue, 
I'm confident in the compassion of the American people, and I'm 
confident in our ability to do what is right and what is 
necessary to secure our border, safeguard our families and 
strengthen our economy.
    Again, I wish to thank the panelists and I wish to thank 
the Chairwoman for convening this wonderful hearing here on 
Ellis Island.
    [The prepared statement of Mr. Gutierrez follows:]
Prepared Statement of the Honorable Luis V. Gutierrez, a Representative 
  in Congress from the State of Illinois, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Thank you Chairwoman Lofgren and Ranking Member King for holding 
this very important hearing on historic and personal reflections on the 
past, present and future of American immigration.
    I would also like to extend my gratitude to the witnesses 
testifying before us today.
    It is particularly significant that this hearing is being held at 
Ellis Island, in the shadow of the Statue of Liberty, the first beacon 
of freedom seen by countless immigrants seeking the American dream.
    I hope that today's hearing will foster a greater demand for 
comprehensive immigration reform and propel a demand for a reform that 
respects this history of welcoming immigrants seeking the American 
dream and to build a better America.
    Dr. Martin Luther King said that ``The arc of the moral universe is 
long, but it bends toward justice.''
    For the millions of hardworking immigrants in this country who toil 
deep in the shadows of our society, where mistreatment and abuse run 
far too rampant, we must continue to ensure that the arc bends their 
way.
    We must continue to ensure that they too can realize their hopes 
and aspirations--and that they too can have a real shot at the American 
Dream.
    I am talking about the humble dreams of the young mother, who 
leaves her home--and her children--before dawn each morning to wait for 
a bus in the harsh chill of a Chicago winter, so she can go take care 
of someone else's kids, but who knows this work will provide money for 
school supplies and doctors' visits and the access to opportunities for 
her children she never thought possible.
    I am talking about the modest dreams of the migrant worker, with 
bloodied, blistered hands and aching muscles, who spends 12 hour days 
in pesticide-ridden fields, so his son can one day realize his dream of 
going to college.
    It is that same immigrant experience--that same pursuit of the 
American Dream--that has been the inspiration and motivation for 
immigrants--generation after generation--in our country.
    And it is our responsibility. It is our solemn obligation to ensure 
that America stays true to its rich heritage of welcoming those who 
seek a better life.
    That we--as a nation--stay true to the eloquent and powerful words 
etched in the base of the Statue of Liberty, which read, ``I lift my 
lamp beside the golden door!"
    In the coming months, we face difficult and very real challenges in 
our efforts to achieve real comprehensive immigration reform and to 
ensure that the golden door is not slammed shut on those who embody the 
entrepreneurial spirit, the drive, the integrity and the work ethic 
that has allowed our nation to flourish.
    But in the end, I am confident we will get there.
    Because I am confident in the will and the spirit of the people who 
are passionate about this issue.
    I am confident in the compassion of the American people.
    And I am confident in our ability to do what is right and what is 
necessary to secure our border, safeguard our families, and strengthen 
our economy.
    I again extend my thanks to the panelists for appearing before us 
today, and I look forward to hearing your perspectives on the history 
and personal stories of American immigration. Thank you.

    Ms. Lofgren. Thank you, Mr. Gutierrez. I'd now like to 
recognize our colleague from Texas, the gentlelady, 
Congresswoman Jackson Lee.
    Ms. Jackson Lee. Good morning and thank you very much, 
Madam Chair, and I would like to add, as others have, my 
appreciation for the wisdom of holding this very vital hearing 
at Ellis Island. Let me thank the National Park Service for 
their hospitality and also their instruction this morning.
    I'm reminded, having visited Ellis Island and the Statue of 
Liberty as a little girl, how moving it was to understand the 
pinnings and underpinnings, if you will, of what this country 
stood for. Even more moving was to recite in class, ``We hold 
these truths to be self evident, that all men are created equal 
. . . with certain inalienable rights . . . life and liberty 
and the pursuit of happiness.''
    Interestingly enough, one might describe the writers of 
that language as immigrants. Coming to this Nation for economic 
opportunity, fleeing persecution. Isn't it interesting that 
today now in the 21st century, we have immigrants who are 
coming for the very same reason? And so I want to, in the 
backdrop of Ellis Island, make it very clear: as you look at 
the faces of the members of this panel, this Subcommittee on 
Immigration, how much we reflect the diversity of America.
    We are very serious, by coming to this place, very serious 
in having this Congress complete its assignment on 
comprehensive immigration reform in 2007. I want to thank the 
members of this panel for each of their individual 
perspectives. I thank the Ranking Member for his leadership on 
these issues. But it is interesting to note that the history 
reflected in Ellis Island showed a public action by the Federal 
Government in 1892, to put forward an immigration station 
costing then $500,000.
    I wonder why they did that, and I would almost imagine that 
they did so, so that in some way they would know who was coming 
into this country. That is what comprehensive immigration 
reform is all about, knowing who is coming and knowing who is 
here. I believe that's a wise move for this Nation. As a Member 
of the Homeland Security Committee, for all of those and 
particularly this great and wonderful State and city, that 
reflects the tragedy of 9/11. Even with that backdrop, as we 
express over and over again our shock and our sadness of that 
day, how important it is to be able to know who is in America. 
So comprehensive immigration reform is also a means of security 
and securing the homeland.
    Ellis Island opened for business as an immigration station 
in 1892 and during the next 50 years, more than 12 million 
people came through the island on their way to a new life in 
the United States. Ellis Island also was used as a detention 
center for aliens who were inadmissable and could not be 
returned to their own countries. And during World War II, it 
was used as a detention center for enemy aliens. Immigrant 
processing at Ellis Island continued until the end of 1954.
    I give you that brief history because it reflects on where 
we are today. No one is suggesting that we should have a system 
that does not have included in it border security, that we 
shouldn't have detention facilities, that we don't have a means 
of selecting out or isolating enemy aliens. But what we do say 
is that we can do it all, and the reason I know that is because 
in the 1960's and thereafter, this great Nation was able to 
send someone to the moon. We're proud of that because I 
represent the Johnson Space Center.
    And then I think we know what is good about immigration 
because we know the names of Irving Berlin, the composer; 
Arthur Murray, the dancer; opera singer Enrico Caruso; comedian 
Bob Hope, and maybe my own constituent Yao Ming of the Houston 
Rockets.
    So there are good things about this process of immigration. 
So even though Ellis Island has been called the island of 
tears, we know that there were hardworking people here who 
processed immigrants, who gave them an opportunity and gave 
them a chance.
    Let me conclude by simply adding to the historical 
perspective, because I'm always reminded of my grandparents, 
who came by way of Jamaica to Panama to South Carolina and then 
to New York. Hard-working laborers who raised four sons and who 
loved this country. I'm reminded of the pictures as I walk 
through this place of Inez Geraldine, who came from Jamaica, 
British West Indies in 1923; of Muriel Marjorie, a little girl 
who came from Trinidad, Tobago, and the name of Rose Lyddie.
    Finally, I would say to you that if you think that this is 
new, be reminded that each time we go up and down on our 
immigration policies, and I quickly say to you remember the 
National Origin Act of 1924. It limited immigration to the 
Western Hemisphere, put quotas on Asians and Eastern and South 
Europeans. The Immigration Act of 1965 restored that again, and 
then allowed people to reunite with their family. And then 
there was the 1980 Refugee Act after the fall of Saigon. And 
finally, the 1986 Immigration Bill, which many people think 
gave amnesty to 2.7 million. It did allow people to come who 
had been here for a period of years, not like the legislation 
we are talking about, which provides penalties and an order for 
which people might become documented.
    I close, Madam Chairperson, by simply saying nothing has 
changed. People come fleeing persecution. People come for 
economic reasons, and therefore nothing should change here in 
the United States Congress. Change should be for the better, 
and that is comprehensive immigration reform. The same pathway 
that our ancestors came--we too, are America, and America is a 
Nation that can do it all. I yield back.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    The subject of this hearing is, ``Past, Present, and Future: A 
Historic and Personal Reflection on American Immigration.'' This is a 
very appropriate topic for the beginning of a year in which we will be 
engaging in major immigration reform, and there is no better venue for 
such a hearing than Ellis Island.
    The island was purchased by the colonial governors of Nieuw 
Amsterdam (later New York) from Native Americans on July 12, 1630. It 
initially was called, ``Little Oyster Island'' because of its abundant 
supply of oysters. It was purchased by Samuel Ellis around the time of 
the American Revolution; his heirs sold it to the State of New York in 
1808 for $10,000.
    Although Ellis Island's position in the harbor made it useful for 
military purposes, it was never needed for national defense. In 1890, 
it was selected by the House Committee on Immigration as the site for 
an immigration station for the Port of New York.
    The immigration station was constructed of Georgia pine with slate 
roofs. The main building was two stories high, about 400 feet long and 
150 feet wide. Four-story peaked towers marked the corners of the 
building. There were baggage rooms on the ground level, and there was a 
great inspection hall above them. Smaller buildings included a 
dormitory for detainees, a small hospital, a restaurant, kitchens, a 
baggage station, an electric plant, and a bathhouse. When the 
Immigration Station officially opened on January 1, 1892, its final 
cost had reached approximately $500,000.
    Ellis Island opened for business as an immigration station in 1892. 
During the next 50 years, more than 12 million people came through the 
island on their way to a new life in the United States. Ellis Island 
also was used as a detention center for aliens who were inadmissible 
but could not be returned to their own countries; and during World War 
II, it was used as a detention center for enemy aliens. Immigrant 
processing at Ellis Island continued until the end of 1954.
    On May 11, 1965, President Lyndon Johnson officially proclaimed 
Ellis Island as part of the Statue of Liberty National Monument. The 
Statue of Liberty-Ellis Island Foundation was established to raise $230 
million for the restoration of these national monuments. More than 20 
million Americans have made contributions to the Foundation.
    Annie Moore was the first person to arrive at Ellis Island. She was 
followed by millions of hard working immigrants who established a life 
for themselves and their families in United States. The diversity and 
richness of their contributions to the United States is apparent even 
in a short list of immigrants who have achieved success in their chosen 
fields: Author Rudyard Kipling; Composer Irving Berlin; Dancer Arthur 
Murray; Opera Singer Enrico Caruso; Actor and Olympian Johnny 
Weissmuller; Comedian W.C. Fields; Comedian Bob Hope; Psychiatrist Carl 
Jung; Psychiatrist Sigmund Freud; Actor, Director, and Comedian Charles 
Chaplin; U.S. President Woodrow Wilson; Magician Harry Houdini; U.S. 
President Theodore Roosevelt; King of the Rhumba Javier Cugat; Master 
Cellist Pablo Casals; U.S. President Herbert Hoover; Pioneering 
Entertainer Walt Disney; Actor Bela Lugosi, Professor and Nobel Prize 
Winner Albert Einstein; Composer Cole Porter; Novelist F. Scott 
Fitzgerald; Song Writer and Composer George M. Cohan; U.S. President 
William Taft; Comedian and Actor Maurice Chevalier; Author Joseph 
Conrad; Composer George Gershwin; and Master Violinist Jascha Heifetz.

    Ms. Lofgren. Thank you. I would like now to recognize our 
final Committee Member, Representative Linda Sanchez, 
Congresswoman from Southern California.
    Ms. Sanchez. Thank you, Madam Chairwoman, and all of you 
who are in attendance. Thank you for taking such an interest in 
this issue. As we learned earlier today on our tour, Ellis 
Island became the first Federal immigration station in 1890. 
And over the course of 62 years, between 1892 and 1954, over 12 
million immigrants entered the United States through this very 
station. During this time, political instability, deteriorating 
economic conditions in Europe, and religious discrimination 
sparked one of the largest waves of immigrants in history.
    These immigrants came from places like Ireland, Germany, 
and Eastern Europe. According to historians, only 2 percent of 
those who arrived at Ellis Island were turned away. Immigrants 
were excluded for two main reasons. Either they had a 
dangerous, contagious disease or an immigration inspector 
concluded that they were likely to become a public charge.
    The criterion for being likely to become a public charge 
was a person who had less than ten dollars, about $216 in 
today's money. Imagine that--the only requirements being $216 
and having reasonably good health. That's certainly a very 
different standard from the standard that we use today.
    The immigrants that were admitted found work where they 
could. The unskilled male workers ended up in steel mills and 
coal mines, while the unskilled female workers cleaned houses. 
Things have not changed much in 100 years, except that now 
instead of mills and mines, they go to work in fields, 
restaurants, meat packing houses, and the homes of the 
affluent.
    These early immigrants frequently faced discrimination. 
Businesses in New York would post signs reading ``No Irish Need 
Apply''. Today, immigrants looking for work face everything 
from recruitment by firms seeking to exploit cheap labor to 
discrimination, substandard working conditions, and joblessness 
based purely on their race or ethnicity.
    But despite these challenges, is it any wonder why this 
country is a magnet for individuals seeking a better life? We 
are the wealthiest Nation in the history of the world, largely 
due to the hard work of immigrants. President John F. Kennedy 
said ``everywhere immigrants have enriched and strengthened the 
fabric of American life.'' He was absolutely correct. 
Immigrants have helped build everything from the steel industry 
to Hollywood.
    Just as in the early 1900's, when immigrants came to the 
U.S. and contributed to the foundation and fabric of this proud 
country, we stand here today in the early years of a new 
millennium to bear witness and support the desire of a new 
generation of immigrants to contribute to that storied 
foundation and fabric that is America.
    Today, immigrants come from every continent except 
Antarctica. But the commitment, the desire, the hopes, and the 
dreams are the same today as they were when millions came 
through these gates a hundred years ago. As some of you may 
know, I am the youngest daughter of immigrants who came to this 
country with very little money and not knowing the language, 
much like many of the immigrants that passed through these 
gates a century ago.
    With hard work, the love and support of family and friends, 
and a little good luck, my parents managed to send every one of 
my six brothers and sisters and I to college. And like the 
children of immigrants from a century ago, my brothers and 
sisters and I have succeeded as engineers, entrepreneurs, and 
public servants.
    Although Maria and Ignacio Sanchez were the first 
immigrants, make that the first couple really, ever to have two 
daughters serve in the United States Congress, throughout 
American history there have been people who have immigrated to 
this country and made substantial impacts. Just to name a few, 
Madeleine Albright, Michael J. Fox, Harry Belafonte, Albert 
Einstein, and one of my personal favorites, Fernando Valenzuela 
of the Los Angeles Dodgers.
    All of these people are a testament to what immigrants 
contribute to our country. While our system has not always been 
perfect, there was a time when it was fair, orderly, and 
humane. Unfortunately, our current immigration system is none 
of those. I don't think anybody would disagree that it is 
broken.
    It is time for us to get back to where we embraced the fact 
that we are all descendants of immigrants. Everyone here is 
either an immigrant themselves or knows someone who shares this 
common legacy. And we should continue to foster that legacy 
with sensitivity and rationality far into the future.
    If you look closely enough into the eyes of an immigrant 
today, whether from China or Mexico or Kenya, you will see the 
same hopes and spirit that burned so brightly in the eyes of 
your immigrant ancestors, whether they came from Ireland, 
Germany, England, or somewhere else.
    I want to thank the Chairwoman for choosing this historic 
site to hold this hearing, and for taking a lead on what is one 
of the most important issues of the 21st century, and I yield 
back the remainder of my time.
    [The prepared statement of Ms. Sanchez follows:]
Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
 in Congress from the State of California, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Thank you, Madam Chairwoman and Ranking Member King.
    As we learned earlier today, Ellis Island became the first Federal 
immigration station in 1890. Over the course of 62 years, between 1892 
and 1954, over twelve million immigrants entered the United States 
through this very station.
    During this time, political instability, deteriorating economic 
conditions in Europe and religious discrimination sparked one of the 
largest waves of immigrants in history. These immigrants came from 
places like Ireland, Germany, and Eastern Europe.
    According to historians, only two percent of those who arrived at 
Ellis Island were turned away. Immigrants were excluded for two main 
reasons: either they had a dangerous contagious disease or if an 
immigration inspector concluded that they were likely to become a 
public charge. The criterion for ``being likely to become a public 
charge'' was a person who had less than $10--about $216 today.
    Imagine that: the only requirements being $216 and had having 
reasonably good health. That's certainly a different standard than 
today.
    The immigrants that were admitted found work where they could. The 
unskilled male workers ended up in steel mills and coal mines while the 
unskilled female workers cleaned houses. Things have not changed much 
in 100 years, except that now instead of mills and mines, they go to 
work in fields, restaurants, meat packing houses and the homes of the 
affluent.
    These early immigrants frequently faced discrimination. Businesses 
in New York would post signs reading ``No Irish Need Apply.'' Today, 
immigrants looking for work face everything from recruitment by firms 
seeking to exploit cheap labor to discrimination, substandard working 
conditions and joblessness based purely on their race.
    But despite these challenges, is it any wonder why this country is 
a magnet for individuals seeking a better life? We are the wealthiest 
nation in the history of the world--largely due to the hard work of 
immigrants. President John F. Kennedy said ``Everywhere immigrants have 
enriched and strengthened the fabric of American life.'' He was 
absolutely correct. Immigrants have helped build everything from the 
steel industry to Hollywood.
    Just as in the early 1900's when immigrants came to the U.S. and 
contributed to the foundation and fabric that is this proud country, we 
stand here today in the early years of a new millennium to bear 
witness, and support the desire of a new generation of immigrants to 
contribute to that storied foundation and fabric that is America.
    Today immigrants come from every continent (except Antarctica), but 
the commitment, the desire, the hopes, and the dreams are the same as 
they were when millions came through these gates 100 years ago.
    As some of you may know, I'm the youngest daughter of immigrants 
who came to this country with very little money and not knowing the 
language--much like many of the immigrants that passed through these 
gates a century ago.
    With hard work, the love and support of family and friends, and 
some good luck, my parents managed to send every one of my six brothers 
and sisters to college.
    And like the children of immigrants from a century ago, my brothers 
and sisters and I have succeeded as engineers, entrepreneurs, and 
public servants.
    Although, Maria and Ignacio S nchez were the first immigrants, make 
that the first couple, ever to have two daughters elected to Congress.
    Throughout American history, there have been people who have 
immigrated to this country and made substantial impacts. Just to name a 
few: Madeleine Albright, Michael J. Fox, Harry Belafonte, Albert 
Einstein and one of my personal favorites, Fernando Valenzuela of the 
Los Angeles Dodgers.
    All of these people are a testament to what immigrants can 
contribute to our country.
    While our system has not always been perfect, there was a time when 
it was fair, orderly, and humane. Unfortunately, our current 
immigration system is none of those. It is broken.
    It's time for us to get back to where we embrace the fact that we 
are all descendents of immigrants.
    Everyone here is either an immigrant themselves or knows someone 
who shares this common legacy. And we should continue to foster that 
legacy, with sensitivity and rationality, far into the future.
    If you look closely enough into the eyes of an immigrant today--
whether from China, or Mexico, or Kenya, you will see the same hopes 
and spirit that burned so brightly in the eyes of your immigrant 
ancestors whether they came from Ireland, Germany, England, or 
elsewhere.
    I thank the Chairwoman for choosing this historic site to hold this 
hearing and for taking the lead on what is one of the most important 
issues of the 21st Century.
    I yield back the remainder of my time.

    Ms. Lofgren. Thank you very much, and thanks to all the 
Members for being pretty close to 5 minutes, we all did very 
well. Without objection, all Members' opening statements will 
be placed into the record, and also without objection, the 
Chair will be authorized to declare a recess of the hearing at 
any time.
    Ms. Lofgren. We have two distinguished panels of witnesses 
here today to help us consider the important issues before us. 
Our first panel this morning includes David V. Aguilar, who is 
the Chief of the Office of Border Patrol in the Department of 
Homeland Security. Mr. Aguilar has served for 26 years in the 
Border Patrol, and is the Nation's highest ranking Border 
Patrol officer.
    We are also pleased that Igor V. Timofeyev, who is the 
Director of Immigration Policy and a Special Advisor for 
Refugee and Asylum Affairs in the Policy Directorate of the 
U.S. Department of Homeland Security, will join us. Mr. 
Timofeyev, himself a refugee from Russia, previously served as 
Associate Legal Counsel for the President of the International 
Criminal Tribunal for the former Yugoslavia and as Clerk at the 
U.S. Supreme Court. Quite an impressive resume.
    Each of your written statements will be made part of the 
record in its entirety, and so I would ask that you summarize 
your testimony in 5 minutes or less. To help you stay within 
the time, there is a timing light at your table. When 1 minute 
remains, the light will switch from green to yellow, to red, 
and then start to blink incessantly when your time is up. As 
you've noticed, I don't have a heavy gavel, but we do hope that 
you try and stay within the time.
    And so, Mr. Aguilar, we are so delighted that you are able 
to join us here this morning. Would you please begin?

TESTIMONY OF DAVID V. AGUILAR, CHIEF, OFFICE OF BORDER PATROL, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Aguilar. Chairwoman Lofgren, Ranking Member King and 
Members of the Committee, it is an extreme honor for me to be 
here before you today at this historic American landmark to 
testify about the United States Border Patrol. The men and 
women, that day in and day out, protect this great country and 
the challenges that we face as we ride the rivers, the 
mountains, and the deserts of this great country.
    It is especially humbling to do so on this ground that has 
served this country and so many families as a gateway to a new 
life and the dream of living as Americans. The men and women of 
the United States Border Patrol have the duty and 
responsibility of protecting our Nation's borders. Today we 
speak about comprehensive immigration reform. Today, I will 
restrict my comments to border security and border enforcement, 
a critically important part of comprehensive immigration 
reform.
    Our priority mission is homeland security. Nothing less 
than protecting our country from those who would enter 
illegally between the ports of entry in order to bring us harm. 
And we continue, of course, vigorously to enforce our 
traditional missions of preventing the illegal entry of people, 
smuggling of people, narcotics, and other contraband into our 
country.
    Madam Chairwoman, Members of the Committee, this country 
has a responsibility to its history, its origins, it heritage, 
and its people. The men and women of the United States Border 
Patrol are very thankful to you, and all the Members of 
Congress and your colleagues who have worked diligently to 
provide DHS, Customs and Border Protection of the United States 
Border Patrol, with the absolutely essential resources to gain 
control of our borders.
    There is much that has been done and is being done by many 
throughout our country today to protect our rich heritage, 
heritage of being an accepting people, a welcoming society, and 
a country of laws. Today, our Nation faces tremendous 
immigration debates. These debates should be vigorous. These 
debates should be spirited. Americans recognize the value and 
the benefits that legal immigration has brought to this 
country.
    But Americans also recognize the detriment that chaotic 
levels of illegal immigration and an unmanaged, uncontrolled 
border, brings to our country. In today's world, we must secure 
our borders and we must manage immigration as a we facilitate 
legal travel and trade. Last year, the United States Border 
Patrol apprehended over 1.1 million people coming across our 
borders illegally. We apprehended over 1.3 million pounds of 
narcotics coming across our borders illegally. Over 108,000, 
other than Mexicans coming across our borders, and over 152,000 
illegal aliens with criminal histories attempting to re-enter 
the United States after having been deported.
    Approximately 98 percent of this activity occurred on our 
Nation's southern border with Mexico. The Border Patrol carries 
forth its responsibilities of patrolling and protecting 
America's 6,000 miles of border between the ports of entry by 
following an all threats strategy. Our resources are deployed 
on a risk management basis that takes into account 
vulnerabilities, risks, and threats. We employ an enforcement 
model along our borders that balances what we refer to as a 
right mix of resources. The resource mix is comprised of 
personnel, technology, and infrastructure, along with the means 
to rapidly respond to any incursion that occurs and that we 
detect.
    In November of 2005, the Secretary announced the secure 
border initiative, of which increased border enforcement is an 
absolutely critical part of a comprehensive immigration reform. 
Today, the Border Patrol has over 12,700 Border Patrol Agents 
along our Nation's borders with Mexico and Canada, a 30 percent 
increase since 2001.
    We have ended what has previously been known as catch and 
release, of other than Mexican aliens that crossed our borders 
in the past. We have implemented expedited removal of other 
than Mexicans, which streamlines but ensures safeguards of 
immigrant rights while we remove these people that have no 
relief to immigration laws. We have implemented Operation Jump 
Start. Operation Jump Start is the support of up to 6,000 
National Guard personnel along our Nation's southern border 
with Mexico that help build border infrastructure, perform 
administrative functions, help manage our fleet, and especially 
act as our eyes and ears on the border with Mexico.
    Today, we are building fences, roads, installing border 
barriers, and lighting at locations that will increase our 
enforcement capabilities and efficiencies. I am very pleased to 
report the accomplishments of these on-going initiatives and 
others that are happening. Today, we have a very significant 
and sustained reduction of flow across our Nation's border with 
Mexico, approximately a 30 percent reduction of that flow.
    Other than Mexican, apprehensions are down by about 51 
percent. Narcotics apprehensions are actually up by 27 percent. 
This is a good thing. A reduced flow of illegal alien activity 
across our southern border with Mexico gives us the ability to 
concentrate on threats that exist besides illegal immigration.
    While it is correct that many of our resources are being 
applied and directed toward the southern border, this does not 
in any way reflect us ignoring our northern border. It is vast. 
It is remote in very many areas. And it is an area that does 
not have any worthy activity levels of the southern border. It 
is an area where we enjoy exceptional relationships with our 
Canadian law enforcement partners in an area that lends itself 
to partnerships with the communities, farmers, and ranchers on 
both sides of the borders.
    We are working very hard with our Canadian and Mexican 
counterparts to ensure that we do everything we can to protect 
our borders.
    Madam Chairwoman, I just want to say the following because 
I think it is absolutely important. There are many today that 
have asked whether the resourcing and enhancements of the 
United States Border Patrol are, in fact, important to homeland 
security. The answer is definitely yes.
    Some people would believe that Border Patrol enforcement 
capabilities are being increased solely for the purposes of 
stopping illegal immigration between the ports of entry. The 
fact of the matter is that an unmanaged, uncontrolled border is 
an unsafe border. Not an unsafe border just for our border 
communities, but an unsafe border for our country.
    The high activity levels that our southern border is 
experiencing creates opportunities for those that would come 
into this country to bring us harm. An unmanaged border is 
easily exploited by criminal organizations that seek to bring 
drugs to our schools, our streets and our neighborhoods.
    We have a responsibility, a responsibility to our 
forefathers, to our children, to our children's children to 
secure our borders. In order to remain an accepting society, a 
welcoming people, and a society of laws, we must secure our 
borders.
    And in closing, while immigration inspectors worked these 
hallways and offices back in the early days of our country, our 
Border Patrol forefathers, who were known as the Mounted Guard, 
patrolled the borders of our country on horseback on the 
northern and southern borders of Mexico and Canada. Their 
collective responsibilities were important to this country. 
They defended our country by defending our borders. They kept 
out disease, animals, criminals and others our society did not 
deem welcome. Our responsibilities today as their successors, 
are much greater.
    The threats to our Nation are deadlier and the results of 
failure would be catastrophic. Our mission has not changed. Our 
resolve has actually strengthened.
    I close, Madam Chairwoman, Members of the Committee, 
Ranking Member King, by saying that it is very proper for this 
hearing to be held here in the very ground where so many 
millions of individuals legally took their first steps of 
American ground toward their dream. Ellis Island represents 
America's front door, America's golden door. We must keep it 
that way.
    Our mission, our responsibility is to protect and ensure 
that America remains a welcoming country. To do so, we must 
secure our borders.
    Madam Chairwoman, I stand ready to answer any questions 
that you might have.
    Thank you.
    [The prepared statement of Mr. Aguilar follows:]
                 Prepared Statement of David V. Aguilar
    CHAIRWOMAN LOFGREN, RANKING MEMBER KING, AND DISTINGUISHED 
SUBCOMMITTEE MEMBERS, it is my honor to appear before you at this 
historical American landmark today to discuss American Immigration its 
history and its promise. My name is David Aguilar, and I am the Chief 
of the U.S. Border Patrol a component of the Department of Homeland 
Security's (DHS) U.S. Customs and Border Protection (CBP). It is my 
privilege to testify about the United States Border Patrol, the job 
that our men and women perform day in and day out in protecting this 
great country and our people, the challenges that we face and the 
achievements that have been made along our country's borders. It is 
especially humbling to do so on this ground that has served this 
country and so many American families as a gateway to a new life and 
the dream of living as Americans. Immigration has been one of the 
wellsprings of our great democracy's vitality and together with our 
written Constitution and the institutions and documents that support 
it, constitute the framework of our nation's greatness.
    The role of federal immigration at the Ellis Island Station started 
on January 1, 1892 during the administration of President Benjamin 
Harrison. Congress created this station in reaction to a great wave of 
new immigration, itself made possible by late 19th century changes in 
transportation technology. The mass of new immigration brought with it 
threats of epidemic disease, organized crime, and radical ideology. The 
Nation's response was to create a legal procedure through which lawful 
immigrants could be screened, and to introduce stations like this one 
as gateways for that lawful procession. From 1892 to 1924, Ellis Island 
was the Nation's first line of defense, and the two agencies charged 
with processing immigrants at Ellis Island were the United States 
Public Health Service and the Bureau of Immigration (later to become 
known as the Immigration and Naturalization Service--INS).
    Since then we've seen great changes in the sources of immigration 
and means of transportation, but little change in the nature of the 
threats. Ellis Island worked to prevent the spread of Trachoma, while 
we work to prevent the spread of SARS or avian flu. And while Ellis 
Island deported individuals attempting to undermine our great 
democracy, we now seek to detect and prevent any terrorist threat to 
our national security. Unlike Ellis Island, however, which processed 70 
percent of arriving immigrants--all of whom arrived on steamships--we 
cannot concentrate all our efforts in one place. Today there are 
hundreds of Ports of Entry--air, sea and land.
    To better equip the Nation to focus on its now more diverse 
immigration mission, on March 1, 2003, the Immigration and 
Naturalization Service was divided into 3 separate agencies within the 
Department of Homeland Security: Citizenship and Immigration Services, 
Customs and Border Protection, and Immigration and Customs Enforcement.
    I would like to give you a brief review of our agency and mission. 
CBP, as the guardian of the Nation's borders, safeguards the homeland--
foremost, by protecting the American public against terrorists and the 
instruments of terror, while at the same time enforcing the laws of the 
United States and fostering the Nation's economic security through 
lawful travel and trade. Since 1924, the Border Patrol has grown from a 
handful of mounted agents patrolling desolate areas along U.S. borders 
between the Ports of Entry, to today's highly-trained, dynamic work 
force of almost 13,000 men and women supported by sophisticated 
technology, vehicles, aircraft, and other equipment. Contributing to 
accomplishing our priority mission is the Border Patrol's time-honored 
duty of interdicting illegal aliens and narcotics and those who attempt 
to smuggle them across our borders. We cannot protect against the entry 
of terrorists and the instruments of terror without also reducing the 
clutter that is caused by illegal migration across our borders.
    To most effectively secure our border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that supports border security, establishes a robust 
interior enforcement program, and develops a temporary worker program. 
The Administration is dedicated to comprehensive reform of America's 
immigration laws by supporting border security, while maintaining the 
Nation's tradition of welcoming immigrants who enter the country 
legally. For immigration reform to succeed, it must be based on five 
pillars: 1) strengthening security at the borders; 2) substantially 
increasing enforcement in the interior to remove those who are here 
illegally, and to prevent employers from deliberately or inadvertently 
hiring illegal immigrants; 3) implementing a Temporary Worker Program 
to provide a legal channel for employers to hire foreign workers to do 
jobs Americans are unwilling to do; 4) addressing the millions of 
illegal immigrants already in the country; and 5) helping new 
immigrants assimilate into American society. The Administration's plan 
will deter and apprehend migrants attempting to enter the country 
illegally and decrease crime rates along the border. The plan also will 
serve the needs of the economy by allowing employers to hire legal 
foreign workers on a temporary basis when no American is willing to 
take the job, bring illegal immigrants out of the shadows without 
providing amnesty, and restore public confidence in the Federal 
Government's ability to enforce immigration laws. As immigration reform 
legislation is considered, it is crucial to heed the lessons of past 
reform efforts and avoid repeating their mistakes. All policies for 
comprehensive reform must be workable. In 1986 an opportunity was 
missed by not crafting a law that was workable. We should not repeat 
that mistake.
    The only way good legislation will be passed is by working together 
to craft a solution that all Americans can support and is worthy of our 
great tradition as a nation of laws and a nation of immigrants. At its 
base, comprehensive immigration reform should strive to end illegal 
immigration, control our borders, and have a system that is at once 
workable and enforceable while meeting the actual economic needs of our 
country through humane and just legal immigration.
    The Border Patrol's national strategy is an ``all threats'' 
strategy with anti-terrorism as our main priority. Comprehensive 
immigration reform will serve to sharpen the focus of this priority. 
Our strategy is a risk-management approach to deploy our resources. The 
strategy recognizes that border awareness and cooperation with our law 
enforcement partners are critical. Partnerships with the Department of 
the Interior; Immigration and Customs Enforcement; Drug Enforcement 
Administration; Federal Bureau of Investigation; State, local, and 
tribal law enforcement agencies; and State Homeland Security offices 
play a vital role in sharing and disseminating information and tactical 
intelligence that assists our ability to rapidly respond to an 
identified threat or intrusion, which is essential to mission success.
    Recognizing that we cannot control our borders by merely enforcing 
the law at the ``line,'' our strategy incorporates a ``defense in 
depth'' component, to include transportation checks away from the 
physical border. Traffic checkpoints are critical to our enforcement 
efforts, for they deny major routes of egress from the borders to 
smugglers intent on delivering people, drugs, and other contraband into 
the interior of the United States. Permanent traffic checkpoints allow 
the Border Patrol to establish an important second layer of defense and 
help deter illegal entries through improved enforcement.
    The Border Patrol has a clear strategic goal: to establish and 
maintain effective control of the border of the United States. 
Effective control is defined in the Border Patrol's strategy as the 
ability to detect, respond, and interdict border penetrations. In order 
to establish effective control in a given geographical area, we must be 
able to consistently:

        <bullet>  Detect an illegal entry;

        <bullet>  Identify/Classify the entry and determine the level 
        of threat involved;

        <bullet>  Respond to the entry; and

        <bullet>  Bring the event to a satisfactory law enforcement 
        resolution.

    Gaining, maintaining, and expanding a strong enforcement posture 
with sufficient flexibility to address potential exigent enforcement 
challenges is critical in bringing effective control to the borders. 
Guidance at the national level for planning and implementation ensures 
resources are initially targeted to gain and maintain effective control 
in the most vulnerable, highest-risk border areas, and then to expand 
this level of border control to all Border Patrol Sectors.
    Crucial to effectively accomplishing our mission is SBInet. Through 
SBInet, the technological component of the Secure Border Initiative 
(SBI), CBP will continue to assess, develop, and deploy the appropriate 
mix of technology, personnel, and infrastructure to gain, maintain, and 
expand coverage of the border in an effort to use our resources in the 
most efficient fashion. SBInet's expansion of a 21st century system of 
cameras, biometrics, sensors, air assets, improved communications 
systems, and innovative technology will provide the force multiplier 
that the Border Patrol needs to perform its mission in the safest and 
most effective manner.
    The proper mix of personnel, technology, and infrastructure will 
vary with differing border environments and enforcement challenges. The 
Border Patrol operates in three basic geographical environments: urban, 
rural, and remote. Each of these environments requires a different mix 
of resources.
    In an urban environment, enforcement personnel generally have only 
minutes, or sometimes seconds, to identify an illegal entry and to 
bring the situation to resolution. This dynamic is a result of the fact 
that significant infrastructure exists to facilitate an illegal 
entrant's approach to the border and entry and to permit the violator 
to escape within moments of effecting the entry by blending in with the 
legitimate traffic in the community. Typically, smugglers and potential 
illegal entrants prefer urban areas due to the available 
infrastructure.
    In urban areas, the deployment mix will lean heavily on SBInet-
provided tactical infrastructure, such as lights and fences, supported 
by sufficient personnel to quickly respond to intrusions. The 
deployment tends to be of high visibility in that a potential intruder 
actually sees the barriers, lights, detection capability, and patrols 
occurring on or near the immediate border. The goal of deployment in an 
urban area is to deter and/or divert potential illegal traffic into 
areas where the routes of egress are not immediately accessible and 
enforcement personnel have a greater tactical advantage.
    In a rural environment, response time to an incursion can be 
greater, as the time from the point of entry to assimilation into the 
local infrastructure may be minutes or hours, exposing the violator for 
a longer period of time and allowing for a more calculated enforcement 
response. Deployment in a rural area will be less dependent upon such 
things as pedestrian fences and stadium lighting and more dependent 
upon SBInet solution sets involving detection technology, rapid access, 
and barriers designed to limit the speed and carrying capability of the 
violators.
    In remote terrain it may take a violator hours or even days to 
transit from the point of entry to a location where the entry may be 
considered successful. This allows for a significantly more deliberate 
response capability geared toward fully exploiting the terrain and 
environmental advantages. Deployments in remote areas will lean very 
heavily on detection technology and will include infrastructure geared 
toward gaining access to permit enforcement personnel to confront and 
resolve the event at a time and location that are most tactically and 
strategically advantageous. Other infrastructure/facilities that may be 
employed in a remote area include remote operating bases to provide for 
full enforcement coverage in areas that are difficult to access on a 
shift-to-shift basis.
    While it is key that the right combination of personnel, 
infrastructure, and technology be deployed, it must be coupled with 
improved rapid response capability and organizational mobility. Each of 
these components is inter-dependent and is critical to the success of 
the CBP strategy. Operation Jump Start has provided a valuable 
beginning to more rapidly achieving the goal of border security. 6,000 
National Guard members have been deployed to the Southwest border to 
support of the President's initiative to secure the border.
    We are fully engaged with the DHS Science and Technology (S&T) 
Directorate in our efforts to identify, develop and acquire technology 
to help us gain enhanced awareness and control of our borders. Our 
participation in S&T's Integrated Process Team on Border Security, for 
example, will help us use S&T resources to develop technology that will 
better secure our borders. Systems with the technological ability to 
predict, detect, and identify illegal entries and other criminal 
activity, but lacking the capacity for a rapid response or reaction, 
cannot complete the enforcement mission. Conversely, enforcement 
personnel with inadequate intelligence or poor technological support to 
provide situational awareness, access, and adequate transportation or 
equipment necessary to conduct enforcement activity are much less 
likely to be effective in today's dynamic border environment.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Therefore, 
securing every mile of diverse terrain is an important and complex task 
that cannot be resolved by a single solution, such as installing fence 
alone. To secure each unique mile of the border requires a balance of 
technology, infrastructure and personnel that maximizes the 
government's return on investment and is tailored to each specific 
environment. Some of the components included by the Border Patrol and 
SBInet in evaluating tactical infrastructure needs are border access 
(the existence of all-weather roads), border barriers (vehicle and 
pedestrian), and the lack of non-intrusive inspections equipment at 
checkpoint facilities.
    The hiring and training of agents present both a challenge and an 
opportunity for the Border Patrol. CBP expects all training directed at 
achieving the President's target of 18,300 Border Patrol agents on 
board by December 31, 2008, to be conducted at the Border Patrol 
Academy in Artesia, New Mexico. CBP and the Federal Law Enforcement 
Training Center (FLETC) have agreed upon a plan to train a minimum of 
3,600 new trainees in fiscal year 2007, 4,350 trainees in fiscal year 
2008, and 850 trainees in the first quarter of fiscal year 2009. The 
Academy has increased the number of permanent instructors, detailed 
instructors, and rehired annuitants to meet the increased training 
load. Advanced Instructor Training to ensure that instructors have 
appropriate technical and teaching skills is being conducted at the 
FLETC facility in Charleston, South Carolina.
    In the task of achieving border security, we partner with other DHS 
components and other Federal, State, and local law enforcement agencies 
and the Government of Mexico, bringing together resources and fused 
intelligence into a geographical area that has been heavily impacted by 
illicit smuggling activity. Our efforts include building on 
partnerships with the Government of Mexico to create a safer and more 
secure border through the Border Safety Initiative, Expedited Removal, 
and Interior Repatriation programs. In doing so, we continue to have a 
significant positive effect on fighting terrorism, illegal migration, 
and crime in that border area.
    On the Northern border, the vastness and remoteness of the area and 
the unique socio-economic ties between the U.S. and Canada are 
significant factors in implementing the Border Patrol's national 
strategy. Severe weather conditions on the Northern border during 
winter intensify the need to expand ``force-multiplying'' technology to 
meet our enforcement needs. The number of actual illegal border 
penetrations along the U.S.-Canada border is small in comparison to the 
daily arrests along the U.S.-Mexico border. The threat along the 
Northern border results from the fact that over ninety percent of 
Canada's population of 30 million lives within one hundred miles of the 
U.S.-Canada border. It is most likely that potential threats to U.S. 
security posed by individuals or organizations present in Canada would 
also be located near the border. While manpower on the U.S.-Canada 
border has significantly increased since 9/11, the Border Patrol's 
ability to detect, respond to, and interdict illegal cross-border 
penetrations there remains limited. Continued testing, acquisition, and 
deployment of sensing and monitoring platforms will be key to the 
Border Patrol's ability to effectively address the Northern border 
threat situation.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive, and difficult job, which historically has presented immense 
challenges. We face those challenges every day with vigilance, 
dedication to service, and integrity as we work to strengthen national 
security and protect America and its citizens. I would like to thank 
both Chairwoman Lofgren, and the members of the Subcommittee, for the 
opportunity to present this testimony today at this historic location 
and for your support of CBP and DHS. I would be pleased to respond to 
any questions that you may have at this time.

    Ms. Lofgren. Thank you very much, Chief. And now we will 
ask Mr. Timofeyev to make his 5-minute statement.

TESTIMONY OF IGOR V. TIMOFEYEV, DIRECTOR OF IMMIGRATION POLICY 
  AND SPECIAL ADVISOR FOR REFUGEE AND ASYLUM AFFAIRS, POLICY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Timofeyev. Madam Chairman, Representative King, Members 
of the Subcommittee, thank you inviting me to testify before 
you today about the role of immigration in the development of 
American society. I am especially honored that my first 
appearance before your Committee, indeed before any 
congressional Committee, is taking place at this symbolic 
location, the Ellis Island Immigration Museum.
    As an immigrant myself, and as someone whose ancestors have 
passed through the halls of this building, I have an immediate 
appreciation of the seminal role that the Ellis Island played 
in immigration history of the United States. The challenge that 
the Ellis Island Station was built to meet is the same 
challenge we confront today, to find a way to encourage and 
promote legal immigration into the United States that benefits 
our country and ensures security, while also guarding against 
illegal migration by achieving effective control of the border 
and improving the enforcement of immigration laws in the 
interior.
    To meet this challenge, the Department of Homeland Security 
is committed to realizing the President's vision of immigration 
reform. Today, I would like to share with you some of my views 
on the history of immigration, on important initiatives the 
Department of Homeland Security is undertaking, and on some of 
the principles we should keep in mind as we work to reform our 
immigration system.
    Throughout our country's history, a hallmark of American 
immigration has been an emphasis on integration and 
inclusiveness. Today, our country is receiving numbers of new 
immigrants and faces new challenges in upholding this ideal.
    With the creation of the Department of Homeland Security, 
the Federal Government is reinvigorating its efforts to be 
directly involved in integration initiatives, and alongside 
community-based organizations, faith-based groups, and 
educational establishments.
    Notably, President Bush recently created the Task Force on 
New Americans, an inter-agency group designed to enhance 
efforts to proactively integrate new immigrants and encourage 
assimilation.
    The primary efforts of a task force are directed at 
promoting instruction in English language and U.S. civics and 
history as ways to equip immigrants with the means they need to 
succeed.
    I also would like to discuss a specific facet of 
immigration, namely the refuge that the United States has 
provided from its inception to individuals fleeing persecution. 
Since its founding, refugees have come to, and have been 
welcomed, in the United States in ever-increasing numbers.
    Today, U.S. Citizenship and Immigration Services, a 
component of our Department, houses both a newly-minted Refugee 
Corps and a well- established Asylum Corps. These are corps of 
professional officers who receive special training in 
international human rights law, conditions in countries or 
origin, and other relevant national and international refugee 
law. Officers from these corps adjudicate tens of thousands of 
asylum and refugee applications every year, thereby enabling 
refugees and asylum seekers from all corners of the world to 
receive the protection of the U.S. Government and resettle in 
communities across the United States to begin their lives anew.
    To meet today's challenges in the area of immigration, we 
need Congress to enact immigration reform legislation that 
would be both effective and workable. Two areas that will be of 
crucial importance to immigration reform legislation are 
worksite enforcement and programs for temporary guest workers 
and for undocumented workers already in the United States.
    Improvements in worksite enforcement are central to 
effective immigration reform. By closing the existing loopholes 
that allow illegal aliens to find jobs, we will remove the main 
economic incentives that draws illegal immigration to our 
country. In this respect, we should make it mandatory for 
employers to use electronic employment verification system. 
This is a system that would enable employers to confirm quickly 
and accurately that the new employees are United States 
citizens or worker-authorized non-citizens.
    Two equally important components of immigration reform are 
the creation of a lawful, orderly mechanism to enable foreign 
workers to enter the United States on a temporary basis to fill 
jobs for which U.S. workers cannot be found and the development 
of a plan to bring millions of illegal immigrants working in 
the shadows of our economy under the rule of American law. The 
temporary worker program should have a built-in flexibility to 
periodically adjust the number of guest worker visas issued 
based on the United States' economic needs at a particular 
time. This program would be a part of the overall effort to 
ensure that our immigration system is well geared to serve the 
economic needs of our society.
    We should also allow undocumented workers who are already 
in the United States to come out of the shadows, pay their debt 
to society, and obtain legal status. Once these individuals 
have achieved full reconciliation with the law, they should not 
be precluded from beginning the process of legally integrating 
themselves into the American polity.
    We are working today on a difficult, but vitally important 
task, of creating a workable, common-sense immigration policy 
for America. This policy should enhance our security, 
strengthen our economy, and honor both the rule of law and our 
heritage as a Nation of immigrants. I thank you for the 
opportunity to share some of my thoughts on this subject, I 
look forward to working with you on this task, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Timofeyev follows:]
                Prepared Statement of Igor V. Timofeyev
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Mr. Timofeyev. We now 
have an opportunity to provide questions to these witnesses, 
each of us, for a maximum of 5 minutes, and I will begin.
    I would first note to both of the witnesses that their full 
written testimony will be part of the record. I would like to 
ask you, Chief Aguilar, in your written testimony, you stated 
and I quote, ``to most effectively secure our border, we must 
reform our immigration system to relieve the pressure'' caused 
by illegal immigration.
    From your perspective, how would comprehensive immigration 
reform assist you and your officers in the important job of 
securing our borders?
    Mr. Aguilar. A well-designed and comprehensive immigration 
reform program that works will mitigate the flow across our 
borders, both north and south, will allow our enforcement 
officers to concentrate on the threats coming at this country 
from the perspective of people wishing to do us harm.
    Today, unfortunately, the high levels of illegal 
immigration across our southern border are quite chaotic. They 
create opportunities for terrorists or people associated with 
terrorism to mix in with that elevated flow, so it would 
mitigate the flow. It would be a tremendous force multiplier 
for the men and women of the Border Patrol to continue 
protecting this country.
    Ms. Lofgren. So recently we had testimony from a U.S. 
Attorney who mentioned, and I really never thought about it, 
but that there have been prosecutions of smugglers instead of 
what you describe as the nannies coming across the border. If 
I'm hearing you correctly, it would be a lot better to get the 
nannies and the husbands and wives of people who are here in a 
different situation so that you could concentrate on people who 
are set upon doing bad things. Would that be a correct summary 
of what you just said?
    Mr. Aguilar. Yes, ma'am. The flow that we deal with today 
is very diverse. Fortunately, a lot of that flow is a very 
docile flow, but mixed in with high number of people are also 
criminals, the narcotics smugglers and everybody else that we 
should be focusing on, so by reducing that flow of diversity 
that is looking to come into this country for other than 
criminal activities, would be a tremendous force multiplier for 
us.
    Ms. Lofgren. Now in your written testimony, you noted that 
the Border Patrol's national strategy, and you just mentioned 
in your oral testimony as well, was an all threats strategy.
    Mr. Aguilar. Yes, ma'am.
    Ms. Lofgren. And obviously, not only do I serve on the 
Judiciary Committee, I serve on the Homeland Security 
Committee, and terrorism is an important element of what we are 
paying attention to and what we need to pay attention to. You 
mentioned in the testimony that comprehensive immigration 
reform would serve to sharpen the focus of the terrorism 
mandate that you have. Could you elaborate on that? Is it 
really the same issue as the other criminal activity where you 
get the kind of good people who haven't fallen into our 
immigration system, but they're not terrorists, they're not 
crooks, sort of out of the way. Is that the theory?
    Mr. Aguilar. Yes, ma'am. As you stated, getting the people 
that are not wishing to bring harm to this country off through 
a regulated system into this country, it will allow us to focus 
our efforts not only through the illegal incursions that will 
occur, but through the focused efforts between Canada and 
Mexico and intelligence, and work very closely with them, with 
us on, that will allow us to focus and to pinpoint where the 
threats, vulnerabilities and risks which are specific to 
terrorism and anything having to do with the terrorist nexus.
    Ms. Lofgren. Now I want to follow up. You touched on it 
briefly on the--I hate the phrase, catch and release, because 
it reminds me of going fishing with my dad, and it's not that. 
But where people are detained and then previously were given a 
ticket to show up and then they didn't. It's sort of a very 
high failure to appear rate.
    Has that ended? Is your testimony that that's no longer 
happening?
    Mr. Aguilar. The practice that we had, unfortunately, of 
catch and release, related to the apprehension of people from 
other countries other than Mexico, coming into this country, 
being apprehended and due to a lack of housing capabilities, 
bed space and things of this nature, we used to serve them with 
a document, release them on their own recognizance and then 
they would not show up for their deportation removal hearing. 
That practice has, in fact, ended.
    Today, as we speak, upwards of 95 percent of all of those 
other than Mexicans are, in fact, being housed and removed from 
this country effectively. The important piece of this is that 
in the past, when we were releasing them, that in itself was 
creating further draw into this country by actually housing 
them, jailing them, removing them, that has now caused 
deterrence which has caused a 50 percent drop.
    Ms. Lofgren. My time has expired. So I will now turn to the 
Ranking Member, Mr. King.
    Mr. King. Thank you, Madam Chair. And I thank both you 
gentlemen for your testimony today and in particular, Chief 
Aguilar, I know what kind of a job you had ahead of you. We've 
been to the border together and----
    Mr. Aguilar. Yes, sir.
    Mr. King. And it has helped my expanding perspective of how 
big that problem is.
    I turn my first question to Mr. Timofeyev, and I see here, 
I didn't anticipate your testimony today, so I haven't had an 
opportunity to read through it, just the verbal, but you're 
here representing the Department of Homeland Security, is that 
correct?
    Mr. Timofeyev. That is correct.
    Mr. King. And then as you speak, this would be the 
Administration's policy here today?
    Mr. Timofeyev. I certainly do not intend to contradict the 
Administration's policy.
    Mr. King. I hope that when you speak, we can count on that 
as being the voice of the Administration's policy. Would that 
be correct?
    Mr. Timofeyev. I will do my best to do that.
    Mr. King. Thank you very much. And so as--in your testimony 
your talked about the--I'll use the term, the regularization of 
illegals, let them pay a fine and then get them into a system. 
Now the Administration has taken the position that they're 
opposed to amnesty, so I'd ask you to define amnesty, if you 
could, for this panel, please?
    Mr. Timofeyev. Well, I think it is absolutely true. The 
Administration and the President have been very clear that they 
do oppose an amnesty for people who are undocumented workers, 
or people who are here illegally.
    So I would say that I'm not sure if I want to define 
amnesty and give a dictionary definition. I think the 
importance is that, as we work toward crafting the necessary 
elements of immigration reform, we ensure that what we do does 
not actually represent amnesty.
    Mr. King. And if I might, there's been discussion out of 
the White House about paying a fine of $1500 or $2000, learning 
English as if that were a penalty, and I take that out of the 
equation because I think that's something that's an asset, not 
a penalty. But if $2000, would you presume or would you take 
the position that that would substitute for the penalty for 
unlawful entry into the United States and then that would not 
be an amnesty, paying a fine would substitute for the penalty?
    Mr. Timofeyev. Representative King, I think there are lots 
of discussions going on. I know that certainly, Secretary 
Chertoff has been meeting with lots of Members, both in the 
House, in the Senate, on both sides of the aisle, I know with 
many Members of this Subcommittee, so I don't want to discuss 
particular----
    Mr. King. Excuse me, I can cut to the chase on that point 
and that is if it's $2,000 or $1,500 or $100 or $10 or $1, it 
really is a price for having a penalty absolved and so I wanted 
to make sure that we had that part in the record and I 
appreciate your testimony. And time going along here, with 
Chief Aguilar, I wanted to explore a little bit with you, too. 
I honestly have difficulty understanding how we can regularize 
people in 12 million or 20 million or whatever that number is 
and presume that that's going to take the load off of you. And 
you had significant dialogue with the Chair here, but say if 
it's 12 million people and that's the number, how do you do 
background checks on people that don't really have a legal 
existence in their home country and aren't you then giving them 
the card that would allow them to come in and out of the United 
States at will? And won't they have less scrutiny, rather than 
more scrutiny on them if they happen to be carrying contraband?
    Mr. Aguilar. By funneling legal people through the ports of 
entry, it gives us the opportunity as a country to do what we 
did with this very location here, to actually follow them 
through an inspection point and make sure that they are 
admissible and for purposes of contraband, also review what 
they're bringing into this country. That's the first thing. So 
bringing them through the legal ports of entry.
    Representative King, I have been asked many, many times 
this similar question. I don't know what the answer is as to 
how we take care of those 12 million people, but the answer 
that I have had on a constant basis is the following, that I 
believe as an American, forget that I'm the Chief of the Border 
Patrol, is that we need to do what is right for the 300 million 
Americans today and the millions to come.
    We cannot allow the 12, the 14, the 18 million that are out 
there today to impact on the future of this country. I don't 
know what the design is. But I do know that we need something 
in place to be able to inspect, to regulate, to modify, the 
situation that we have right now across our borders.
    Mr. King. And I thank you, Chief. And I think this does 
illustrate how difficult it is when we've got so many 
hypotheticals in this comprehensive immigration proposal that 
it's impossible to divine what alternatives we might have to 
take down the road or year or two or five. And you'll know that 
that's why I think that enforcement first is the thing we have 
to do in order to get some clarity on the rest.
    Mr. Aguilar. Absolutely.
    Mr. King. And I point out that we're spending now $8 
billion on the southern border. That's $4 million a mile and 
we're getting $65 billion worth of illegal drugs coming across 
that border.
    Mr. Aguilar. Yes, sir.
    Mr. King. On an annual basis. And so your job is very, very 
difficult. And I appreciate the work that you do and I yield 
back to the Gentlelady.
    Mr. Aguilar. Thank you.
    Ms. Lofgren. Thank you very much. Next I'd like to invite 
Congressman Gutierrez to ask his 5 minutes of questions.
    Mr. Gutierrez. Thank you very much. First, I'd just like to 
state that it never ceases to amaze me that people will first 
of all complain or make allegations that the new immigrants 
that come to this country because they can communicate so 
readily with their countries of origin, don't want to learn 
English; and then when there are others who say we're going to 
make it a requirement that they learn English, they somehow 
cast that aside as something that you should do. Either we 
should or we shouldn't. And I think everybody on both sides of 
the aisle should say that people should learn English. I mean 
it should a basic, fundamental requirement. But I would just 
like to ask either of the two, is it a requirement to become a 
permanent resident of the United States today in our laws to 
pass an English and a civics test?
    Mr. Timofeyev. It is a requirement, indeed, not to become a 
legal or permanent resident, but to naturalize. There, it is a 
requirement.
    Mr. Gutierrez. So it is part of the legalization process of 
the undocumented, we change the rules and advance learning 
English and taking a civics class is that indeed not a change 
in the law in order to require these people to do something 
different because of their status of undocumented in this 
country? The only ones that have to pass one is to become a 
citizen, am I correct?
    Mr. Timofeyev. That is sp currently.
    Mr. Gutierrez. That is currently the law.
    Mr. Timofeyev. That is currently the law.
    Mr. Gutierrez. So when people propose that people we have 
changed the law, we have advanced that issue and I think that's 
a very, very important aspect of what we do in comprehensive 
immigration reform and we should all just say good, we agree. 
That is something substantially that we agree on.
    I would like to say that I think that most people will 
learn English. My parents only spoke Spanish. I'm sure, I know 
that Congresswoman Sanchez' parents only spoke Spanish. I think 
Congresswoman Sanchez is incredibly articulate and passionate 
with her command of the English language. Many times I put on 
the TV set and I watch highly elected officials of the United 
States of America, of cities and States, that were born here 
and I find a richer command of the King's English from those 
that come from immigrant backgrounds than from those that have 
spent many decades here in this country.
    I would like to go to Mr. Aguilar.
    Mr. Aguilar. Yes, sir.
    Mr. Gutierrez. You--I went back and read your testimony 
because I think what you do is so important and I wanted to 
thank you and all the men and women in the Border Patrol.
    Mr. Aguilar. Thank you. Appreciate it.
    Mr. Gutierrez. You said you caught how many people last 
year trying to enter illegally?
    Mr. Aguilar. Last year, between the ports of entry was just 
over 1.1 million.
    Mr. Gutierrez. And how many people that you inspected had 
criminal records of that 1.1 million?
    Mr. Aguilar. About 152,000.
    Mr. Gutierrez. About 152,000.
    Mr. Aguilar. Yes, sir.
    Mr. Gutierrez. So a little over, close to 10 percent, maybe 
right around 9 to 10 percent.
    Mr. Aguilar. Yes, sir.
    Mr. Gutierrez. And the other 90 percent crossed that border 
with the intention of what, Mr. Aguilar?
    Mr. Aguilar. The vast majority of that clutter, that chaos 
that we have on the southwest border currently are people 
looking to come into this country for the purpose of seeking 
employment.
    Mr. Gutierrez. Do you know how many visas are issued 
annually for people to come to this country in the low-skill 
category?
    Mr. Aguilar. In the low-skill category, I'm going to have 
to look to my partner here. He's the expert in those areas.
    Mr. Timofeyev. I believe that it's around 5,000.
    Mr. Gutierrez. It's around 5,000. So we have 900,000 people 
ready to come to this country, crossing the border illegally 
into the United States to come to look for some form of work 
and I think I know what kind of form of work because every time 
I sit down at a wonderful gala and I've got my suit on and my 
tie and I look around the room and I see people of my social, 
economic class, and then I see people who have the same last 
name that I do and speak the same language that my parents 
brought here, serving the plates. I think I know what kind of 
work they come to do. So comprehensive immigration reform has 
to include a mechanism, Mr. Aguilar, as a border enforcement 
agent, do you believe that would allow people to come to this 
country legally seeking those new job opportunities?
    Mr. Aguilar. I agree with that statement. Yes, sir. To 
regulate the flow that is currently occurring into this 
country, moving it from between the ports of entry to the ports 
of entry the people, the 90 some percent seeking economic 
betterment, if you will, the problem with that elevated flow is 
those preying on them that create the criminal organizations, 
the smugglers, the dopers that create chaos.
    Mr. Gutierrez. And we want to help you keep them out. I 
would like to ask the Chairwoman because I was following up on 
your line of questioning, maybe we could have established what 
the Department of Labor, our Department of Labor, indicates the 
creation of low-skill, low-wage jobs are every year in our 
economy and compare that to the 5,000 visas, what we create and 
how many visas we actually have.
    Ms. Lofgren. Mr. Gutierrez, this is the first of many 
hearings, and I'm sure that is one of the issues that we will 
get into at subsequent hearings. I would now like to invite the 
gentlelady from Texas to ask her 5 minutes of questions.
    Ms. Jackson Lee. Thank you, Madam Chair, very much and I 
started out my remarks this morning emphasizing the fact that 
we have the mandate, the absolute no choice to engage in this 
Congress, comprehensive immigration reform. And I also noted 
that as I traveled through this wonderful historic building 
with a great sense of emotion that the stories on the walls 
indicated whether the Irish came in the 1800's, the late 
1800's, the mid-1800's or others in the early 1900's and others 
who came continually in the 20th century, there was an economic 
basis for many of those who came and maybe some fleeing 
political persecution.
    So Mr. Timofeyev, I would simply encourage you not to step 
away from what I read in your testimony. It is a valid 
statement, either immigrants who are here undocumented, can 
stay beneath the shadows, or as you specifically say they can 
come out of the shadows, pay their debt to society, and obtain 
some form of legal status which is what is now the charge and 
the challenge of the United States Congress.
    My question to you, one of the failing processes of our now 
years past, not being able to get this right, is an active 
viable executive, whether it is the Department of Homeland 
Security which I sit on the Subcommittee or the full Committee, 
or the President of the United States. And so the message is 
the President has to be engaged and my understanding is you 
read this last part, am I to take from this sentence that 
you've at least been allowed by the Administration to say come 
out of the shadows, pay their debt to society, and obtain legal 
status. Is that accurate?
    Mr. Timofeyev. That is quite accurate.
    Ms. Jackson Lee. That means now we have a partner in what 
we have been calling and I'm not akin to names, I'll take any 
name you call it, but we've been calling comprehensive 
immigration reform. We have a partner, is that my 
understanding?
    Mr. Timofeyev. I think both the President, and certainly 
the Department of Homeland Security, have been always very 
explicit that this is one of the parts of the President's 
vision of immigration reform.
    Ms. Jackson Lee. And if you would for me, and certainly I 
know that you would say I can speak for myself and I can, I'll 
get the phone number and call up in just a moment, but would 
you for me carry back the message to the President of the 
United States that his activism on changing the policies 
constructively to reflect the diversity of America is 
imperative now? I'd appreciate if that message could be carried 
back.
    Mr. Timofeyev. Sure. And I would just say that the 
President has certainly been very active on this issue and so 
has Secretary Chertoff. I will be happy to carry back that 
message.
    Ms. Jackson Lee. We thank you so very much. Chief, might I 
probe you as my colleagues have probed, because one of the 
interesting points that you have made is the massiveness of the 
work that you have on that border. Sometimes we are jaded by 
your single focus.
    Let me just ask a logistical question. Over the sessions 
I've carried legislation dealing with equipment and I'm going 
to ask this question because I know that if you got equipment 
last year, some other equipment have aged out.
    Mr. Aguilar. Yes, ma'am.
    Ms. Jackson Lee. In the course of you securing the borders, 
can you use more power boats, laptops, night goggles, 
technology that can help you be more effective in the securing 
of the border in the 21st century?
    Mr. Aguilar. Absolutely. Yes, ma'am. And I'm happy to 
report that we are getting a lot of that equipment, literally 
as we speak. The hiring of the agents that is occurring now, 
2500 this year, 3000 next year, and 500 by the year after that, 
commonly referred to as a modular cost that equips all of our 
agents with that. The SBInet contract that was let in September 
also, $1.2 billion, in order to get us the technology to do our 
jobs, absolutely.
    Ms. Jackson Lee. Let me, because my time is short, just say 
that I assume that as new personnel are coming in, more 
equipment and more sophisticated equipment might be needed.
    Mr. Aguilar. Yes, ma'am.
    Ms. Jackson Lee. So we should be vigilant on those issues?
    Mr. Aguilar. Absolutely.
    Ms. Jackson Lee. Let me point you again to the question of 
what you do on the border. My understanding, I serve on the 
Subcommittee on Crime on Judiciary, as well, worked on these 
issues of drug interdiction and drug smuggling. My 
understanding is that you have really been challenged with 
respect to drug cartels and drug violence on the border. And I 
think it is very important to distinguish and highlight that 
work versus what I believe you answered my colleague, 
Congressman Gutierrez, to say that you have a docile economic 
seeking group of individuals that are coming, different from 
the violence of drug individuals or drug cartels and others. 
May I yield to you for the answer on that?
    Mr. Aguilar. Yes, ma'am. And I'm very glad that you asked 
that question because just as an example.
    Ms. Jackson Lee. And you should not mix apples and oranges.
    Mr. Aguilar. Absolutely.
    Ms. Jackson Lee. Illegal immigrants or undocumented 
individuals either whether here--well, let me just say that by 
and large coming across, your numbers suggest by and large 
economic, even though we know there's some mixture in there.
    Mr. Aguilar. Yes, ma'am.
    Ms. Jackson Lee. But go ahead, let me yield to you.
    Mr. Aguilar. Yes. Absolutely. That's a very important part 
of what I need to communicate--what the men and women of the 
Border Patrol are doing.
    As an example, on the 23rd of March, I received the 
invitation to come here and testify. Since that day, we have 
had 17 assaults against our Border Patrol officers. We have 
apprehended 52,000 pounds of narcotics; 1100 pounds of cocaine.
    Ms. Jackson Lee. Those are assaults by drug actors, if you 
will.
    Mr. Aguilar. And smugglers, yes, ma'am. A total of over 400 
assaults against our officers this past year. So it is a very 
dangerous job. It is a very critical job to this country and 
the portion of illegal immigration is the portion that creates 
that clutter that has to be mitigated.
    Ms. Jackson Lee. Madam Chair, I will just simply say that I 
wanted that clearly on the record because whenever there is 
violence at the border, whether northern or southern border, we 
seem to have one pool of population that we seem to blame. 
There are other challenges at the border. I look forward to 
working with the Chief on these challenges, and my 
understanding of his testimony is it would help him if we had 
comprehensive immigration reform to separate out those 
populations for him to be able to do his job.
    Madam Chair, I yield back.
    Ms. Lofgren. Thank you. And our final Member is 
Congresswoman Sanchez for her 5 minutes of questions.
    Ms. Sanchez. Thank you, Madam Chair. My first question is 
for Mr. Aguilar.
    Mr. Aguilar. Yes, ma'am.
    Ms. Sanchez. When discussing the situation at the border, 
you observed that securing every mile of diverse terrain is an 
important and complex task that cannot be resolved by a single 
solution such as installing a fence alone.
    Mr. Aguilar. Yes, ma'am.
    Ms. Sanchez. Now lately in Congress, the fence idea has 
gained a lot of traction and for many people it's become the 
solution in their mind. If we just build a fence that's big 
enough and long enough and thick enough, that's going to be the 
solution to our immigration problem.
    I want you to discuss for us some of the potential 
downfalls of building a fence along the border and also perhaps 
elaborate on some other solutions that might make our border 
less porous, that might work a little bit better than a fence.
    Mr. Aguilar. Okay. It would usually take me about an hour 
and a half to 2 hours to cover this----
    Ms. Sanchez. If you could do it in a few minutes----
    Mr. Aguilar. I'll condense this very quickly. A fence will 
be utilized where it makes sense and where it makes sense is 
going to be very specific to the terrain that we're going to be 
addressing. We have three environments in which operate in the 
United States Border Patrol; an urban environment, downtown San 
Diego, a fence makes sense. In a rural or remote environment, 
it might and it might not. The challenges that a fence brings 
with it is the ability to defend that fence. I have often used 
the analogy of what happens when a tree falls in the forest, 
does anybody hear it? What happens when somebody crosses a 
fence in a wide open space, or rural or remote area that we 
can't defend? So what we need is a combination of 
infrastructure, technology and personnel that will give us the 
following capabilities. One, is to detect an illegal incursion. 
Two, is to deter it, if at all possible. Three, is to respond. 
And four, is to bring resolution, a proper law enforcement 
resolution to that incursion. We do that by technology, 
personnel and some infrastructure.
    Ms. Sanchez. I appreciate your answer. Mr. Timofeyev, one 
of the reasons that so many people in the past were able to 
immigrate to this country legally, and in particular I'm 
referring to what we learned about Ellis Island today, is 
because of the efficiency of the system in which they process 
people. And in fact, we learned that passengers in first class 
weren't even really inspected when they got here. They were 
just allowed to enter the country and they didn't need to be 
processed.
    About 80 percent of the case work that I get in my District 
office is some kind of immigration-related case work, and we 
found that sometimes people wait 10, 15, 20 years or more to 
reunite with their families. So I'm interested in knowing in 
your opinion how we could rectify that wait time and make it a 
little more efficient so that our system is a little more 
humane.
    Mr. Timofeyev. I certainly think we should do everything we 
can to have an efficient processing and inspecting system and 
these are somewhat different issues, in fact.
    And I actually think we've always been careful to inspect 
everyone. I think actually the first class passengers, if I 
remember my history lessons correctly, were usually inspected 
right on the boat, so they were treated a little bit 
preferentially than people like my great grandfather, who came 
in the third class, who had to be processed here on the island.
    I think that CIS, Citizenship and Immigration Services, has 
certainly done a lot to make sure that the backlog of 
applications they had in recent years is being cleared, that 
they processed all the applications where individuals were 
entitled to get the visa benefit at that time.
    I think with respect to the family, a lot of family-based 
applications for green cards for people to come here, I think 
the question often is the question of how many visa slots are 
allotted to those people. So it is not just a processing 
question, though that is a part of it, but it's also a question 
of how our system is structured. Our system today is 
structured, I think, so that about 60 percent of people who 
come to become legal residents do so on the basis of 
connections. So it's a sizeable portion.
    Ms. Sanchez. And just very quickly, last question that I 
have time for, I'm particularly interested in some of the 
comments that you had about the temporary worker program. We've 
had them in the past, the Bracero Program and that program 
lacked meaningful enforcement of wage and labor condition 
protections and that led to unsafe and unsanitary working 
conditions and allegations of extremely poor wages.
    After looking at the history of that system, I'm interested 
in knowing what you believe would be the necessary components 
of a guest worker program to help ensure that workers both 
foreign and American workers are protected?
    Mr. Timofeyev. I'm not sure I have an exactly answer for 
you today. I think--I certainly agree that we should--the 
questions of wage differential, worker conditions and 
protections for American workers, those are important 
questions. And we should make sure that, however the program is 
structured, that we guard against potential exploitation.
    I mean this is a very large question on which really our 
Department, the Department of Labor and I think this Committee, 
other Members of Congress have to engage in a lot of 
discussions to see what can we learn from history, what are the 
appropriate moving parts of the immigration reform in that 
particular structure.
    Ms. Sanchez. Thank you.
    Ms. Lofgren. Thank you very much. And we thank the two of 
you very much for your being here with us this morning, not 
only for the testimony, but the opportunity to take a look at 
this magnificent place and to start our discussions with that 
weight of American history behind us. So thank you both very 
much.
    Mr. Aguilar. Thank you, Madam Chairwoman.
    Mr. Timofeyev. Thank you very much.
    Ms. Lofgren. We will now hear from our panel of 
distinguished speakers. First we will hear from Daniel J. 
Tichenor, Associate Professor in the Department of Political 
Science at Rutgers University. Aside from his position at 
Rutgers, Professor Tichenor is an External Faculty Research 
Fellow at the Center for Comparative Immigration Studies at the 
University of California, San Diego. He has also served as a 
visiting research scholar the Center for the Study of 
Democratic Politics at Princeton University's Woodrow Wilson 
School of International and Public Affairs.
    Our next witness is Dowell Myers, a Professor of Urban 
Planning and Demography, at the University of Southern 
California, where he serves as Director of the Population 
Dynamics Research Group. Professor Myers is an advisor to the 
U.S. Census Bureau and has authored the most widely referenced 
work on census analysis. He recently published a book with the 
Russell Sage Foundation titled Immigrants and Boomers--I'm 
one--Forging a New Social Contract for the Future of America.
    Next we have Dan Siciliano, Executive Director of the 
Program in Law, Economics, and Business, at Stanford Law 
School; a former Truman Scholar, Professor Siciliano has taught 
and researched at Stanford's Hoover Institute and conducted 
macro economic policy analysis at the U.S. Congressional Budget 
Office in Washington, D.C. He is also a research fellow with 
the Immigration Policy Center.
    Our fourth witness is Mr. Jack Martin, Director of Special 
Projects at the Federation for American Immigration Reform, as 
Washington-based national immigration reform organization. Mr. 
Martin formerly served as a Foreign Service Officer in the U.S. 
Department of State and on U.S. delegations to the U.N. General 
Assembly.
    Mr. Bruce DeCell is a member of the 9/11 Victims for a 
Secure America. His son-in-law was killed while in a meeting on 
the 92nd flood of the World Trade Center on 9/11. He is reading 
the testimony of our witness, Michael Cutler, who fell ill this 
morning. Mr. Cutler is a former INS Agent and current Fellow 
for the Center of Immigration Studies. So Mr. DeCell will be 
reading his abbreviated testimony and we do appreciate your 
filling in.
    So, as before, the written statements, the entire written 
statements, will become part of the record and I will note that 
there's already been demand from some of our colleagues in 
Congress for the witness statements.
    So if we could start with you, Dr. Tichenor.

TESTIMONY OF DANIEL J. TICHENOR, Ph.D., ASSOCIATE PROFESSOR IN 
    THE DEPARTMENT OF POLITICAL SCIENCE, RUTGERS UNIVERSITY

    Mr. Tichenor. Madam Chairwoman, Members of the 
Subcommittee, thank you for inviting me to appear before you 
today. My name is Dan Tichenor and I am a Research Professor at 
the Eagleton Institute of Politics and an Associate Professor 
of Political Science at Rutgers University.
    I have researched and written extensively on our Nation's 
immigrant past and the development of our immigration policies 
over time. I am delighted to provide some historical 
perspective on contemporary immigration reform. As one of our 
most beloved historians, David McCulloch, aptly observed, ``a 
Nation that forgets its past can function no better than an 
individual with amnesia.''
    Let me begin by highlighting that the American people and 
their leaders have been debating about immigrant admissions and 
rights since the earliest days of our Republic. It is a debate 
that defies the standard partisan divides of our politics, 
reflecting four ideological traditions that are captured in my 
written statement.
    In today's often contentious political environment, I think 
it is useful to appreciate that each of these durable 
ideological perspectives on immigration is driven by a concern 
for the national interest. Alexander Hamilton soberly pointed 
to the value of immigrant labor for national growth and 
prosperity. Henry Cabot Lodge emphasized the importance of 
national security and sovereignty. Frederick Douglass urged us 
to achieve greater economic and social justice for our least- 
advantaged citizens when we think about immigration. And Jane 
Addams and John F. Kennedy reminded us of the universality of 
our republican experiment, noting that our democracy not only 
survived but grew stronger and more vibrant with new 
immigrants.
    At a time when opposing viewpoints are too easily denounced 
and vilified, I think we would benefit from recognizing the 
well meaning and patriotic reasons for many of our 
disagreements over immigration. I also want to underscore that 
our past reveals that each wave of ``new'' immigrants has been 
scorned by critics as incapable of successfully joining our 
ranks only later to be distinguished among our most loyal and 
accomplished citizens. We see an historic pattern of xenophobic 
reactions to groups such as Irish Catholics, who were 
associated with Papal conspiracies; the Chinese, whose 
religious and racial dissimilarity inspired brutal exclusion; 
and Southern and Eastern Europeans, who were deemed too 
radical, criminal and intellectually inferior to admit.
    We have tended for some time to celebrate our immigrant 
heritage while dreading the immigrant present. As early as 
1751, Benjamin Franklin fumed that Germans were ``swarming'' 
into Pennsylvania neighborhoods without regard for our laws, 
customs, and shared values. These newcomers were so culturally 
and linguistically different from his English brethren that he 
was convinced that Germans would never assimilate like previous 
settlers--noting that they would ``Germanize us instead of our 
Anglifying them.''
    As the descent of German immigrants, I'm happy to report 
that while my family probably eats more sausages and potatoes 
than the Surgeon General recommends, we are otherwise well 
assimilated. Our Nation's nativist past should remind us that 
anxieties about the latest newcomers have often proven to be 
overwrought and unfounded.
    Finally, the origins and development of our illegal 
immigration dilemma highlight a series of compromises over time 
that fed the Nation's appetite for cheap labor, while creating 
a vulnerable shadow population and undermining the rule of law. 
Deals were struck among policymakers in the 1920's, for 
instance, whereby national origins quotas all but closed 
overseas, immigration from Europe and Asia while legal and 
unauthorized Mexican labor was encouraged to flow easily across 
our southern border.
    At the same time, as Ellis Island and other stations gave 
way to draconian consular inspection overseas with tragic 
consequences for Jewish refugees in World War II, Mexican labor 
flows overwhelmed an underfunded and undermanned Border Patrol. 
Later mass deportation campaigns proved to be capricious and 
ineffective. As the late President Ford's Domestic Counsel 
Committee concluded 30 years ago, ``mass deportation is both 
inhumane and impractical,'' requiring police state tactics 
``abhorrent to the American conscience.''
    We finally enacted employer sanctions one decade later, but 
they never stood a chance of working. America's checkered 
illegal immigration history underscores why our generation must 
make tough choices to fix the system, recognizing the practical 
and ethical reasons for giving work place enforcement real 
teeth and for giving undocumented immigrants an opportunity to 
earn legal status. I look forward to answering your questions. 
Thank you.
    [The prepared statement of Mr. Tichenor follows:]
                Prepared Statement of Daniel J. Tichenor
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Dr. Myers.

 TESTIMONY OF DOWELL MYERS, Ph.D., PROFESSOR OF URBAN PLANNING 
       AND DEMOGRAPHY, UNIVERSITY OF SOUTHERN CALIFORNIA

    Mr. Myers. Thank you, Madam Chairman and Members of the 
Committee. It really gives me great pleasure to appear before 
you today and I thank you for the opportunity. My name is 
Dowell Myers. I'm a demographer and professor at the University 
of Southern California. I hope Madam Chair won't hold that 
against me. It's the wrong part of California.
    Ms. Lofgren. We've got someone from Stanford sitting next 
to you, so it's all right.
    Mr. Myers. It all evens out. Over the last decade, my 
research group has conducted a number of studies about 
immigration and immigrant well-being in America. I'm pleased to 
report that a number of these findings have now been summarized 
in a book just released this month, a great accomplishment for 
me, a book called Immigrants and Boomers. I will try to 
highlight some of the main points in that book into my 
testimony today.
    So I really have just four points to make in my oral 
statements. First, the social changes we find underway in the 
United States are part of a global demographic transition. 
They're not unique to the United States alone. Throughout the 
whole developed world birth rates have fallen, far below the 
replacement level and populations are rapidly aging. Not only 
is there a surging number of older people to be supported, but 
at the same time for lack of sufficient young people, labor 
force growth is slowing down markedly. It is this overall 
demographic transition that is one of the main reasons why 
immigrants are being drawn into so many countries.
    Now the second point I want to make is about how this aging 
problem impacts the United States specifically. Now the good 
news here is that we are in much better shape than are all the 
European nations or Japan. Our birth rates are higher and our 
aging is slower. Hear that, aging is slower. It's great to be 
an American. Nonetheless, we do face a dramatic crisis because 
of our Baby Boom generation which you all have heard so much 
about already, I know. But it's really no exaggeration here. 
There are 76 million Americans who are rapidly aging led by, by 
coincidence, Presidents Bush and Clinton, who were both born in 
the first year of the Baby Boom, 1946. They're leading the 
charge.
    Now beginning right after the year 2010, 3 years from now, 
this tidal wave of older Americans will cross age 65. And the 
ratio of all those aged 65 and older compared to all those who 
are prime working age which I call 25 to 64, will rise 
dramatically. In fact, the ratio of elderly will grow by 30 
percent for two decades in a row, totalling a 60 percent 
increase by the Year 2030. This has, as you might imagine, 
tremendous consequences for Social Security, Medicare and other 
old age support systems that fund the services entitled by our 
elderly. This crisis starting in 3 years is one of double 
decades of 30 percent growth. So what does this have to do with 
immigration?
    Madam Chair, Members of the Committee, my major point today 
is that immigration plays an important role in moderating the 
impact of these growing elderly numbers. Certainly immigration 
cannot stop the aging of America, but it can help to blunt the 
impact of the growing elderly ratio we must absorb. My 
calculations suggest that without immigration, the impact of 
the rising elderly ratio would be about 20 to 25 percent more 
severe.
    My final point is just how much immigrants can benefit us 
by their economic mobility after they arrive and as they settle 
in longer. Too often we judge immigrants only when they're 
newcomers, not after they have been here. The longer immigrants 
reside in the United States, the higher is their economic 
status. Let me just describe one fact that I think illustrates 
the magnitude of the point that I'm making here. Homeownership 
is widely regarded to be the American dream and a prime 
indicator of entry into the middle class. My studies have shown 
a pervasive pattern of strong upward mobility into 
homeownership by immigrants, including those living in 
California, New York, Texas, Florida and the whole of the 
United States.
    Let's talk about Latino immigrants, who are not always the 
most advantaged when they first arrive. The stunning fact is 
that after they have lived in this country for more than 20 
years, more than 55 percent have become homeowners. After 30 
years, the figure grows even higher. It is clear from these 
data that Latino immigrants are climbing into the ranks of the 
middle class. They can help us close the gap caused by so many 
retiring Baby Boomers.
    Madam Chair, let me just close my remarks by reiterating 
that immigrants and the aging of the Baby Boom are closely 
related. One can help address the problems and challenges posed 
by the other.
    Thank you for receiving this testimony today here on Ellis 
Island.
    [The prepared statement of Mr. Myers follows:]
                   Prepared Statement of Dowell Myers
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Dr. Myers.
    Mr. Siciliano.

 TESTIMONY OF DAN SICILIANO, EXECUTIVE DIRECTOR OF THE PROGRAM 
      IN LAW, ECONOMICS, AND BUSINESS, STANFORD LAW SCHOOL

    Mr. Siciliano. Madam Chair, and Members of the Committee, 
thank you for the opportunity to appear before you today. My 
name is Dan Siciliano and I am the Executive Director of the 
Program in Law, Economics and Business at Stanford Law School. 
I'm also the Senior Research Fellow for the Immigration Policy 
Center that is a nonpartisan think tank for these matters.
    I've submitted written testimony with detailed analysis 
outlining various economic principles and for the interest of 
brevity and to try to make some things that are sometimes 
confusing a little less confusing, I have four main points 
which I've categorized.
    First, a discussion about a storm, a demographic storm 
which I will make more brief because Dr. Myers covered it so 
well; a war, which is really a war for talent; an experiment 
which is underway; and then an opportunity that I think 
lawmakers face now.
    First, we have a looming super storm, a demographic storm 
with tremendous economic consequences which I'll expand on in a 
second. We also have a quiet and profoundly impactful war for 
talent, entrepreneurial spirit, drive and the spirit to strive 
and succeed that is going on for people who we need to ensure 
our Nation's dominance over this next century.
    We also have an experiment that has been underway for 
almost 40 years, one that has already run most of its course 
and tests the premise that immigration, both skilled and 
unskilled, is good for an economy, generally good for workers 
and businesses alike. That experiment is called California. And 
it's been underway for 40 years. And California is one of the 
most successful and vibrant States of our Nation and in the 
world, and yet it has experienced over these 40 years, both at 
the skilled and unskilled levels, levels of immigration that 
are sometimes two to three times in excess of the national 
average.
    And then finally, we have an opportunity. The economy is 
something hard to understand. We pretend sometimes that know a 
lot more than we actually end up knowing, but we can observe 
one thing and that is that the economy is consistently telling 
us that there is a divide between what we say we want to do 
about immigration and what the economy needs in terms of 
immigration at both levels, the unskilled and the highly 
skilled. And I think we are well served to listen to that.
    To summarize the issue about the storm which I'll make 
briefer, productivity growth we know is peaking. We wish it 
wasn't, but it happens to be peaking at this time, more in the 
2 to 2.5 percent annual range instead of the 3.5 or 4 percent 
we experienced before. Labor participation rates in our country 
at about 66 percent or more are among the highest in the 
industrialized nations and are also probably peaking. 
Retirement looms for tens of millions and our native-born work 
force grows gracefully older and better education, which is a 
testament to success in other areas of our public policy, but 
presents a tremendous challenge.
    This means that between 2002 and 2012, we will generate at 
our trend rate of 3 percent GDP growth, about 14.6 percent more 
jobs. Our population rate of growth for workers will be at 
about 11.7 percent across that same time frame, even accounting 
for all types of immigration. This will leave millions of jobs 
lacking and impair the economy and over time either adjust that 
trend growth rate down or create dysfunction inside the economy 
which could result in other issues.
    We are at war over talent and talented people, not just 
smart people with double Ph.D.s coming from other places to 
populate our research labs, although that's a very important 
part of it, but also people who have the chutzpa, the desire to 
show up with $200 something in their pocket and do whatever 
they can to become successful. And that talent battle is one 
that is always waging. There's no easy solution as to how to 
win it, but we do know from an economist's viewpoint, the issue 
of national security, for example, from an economist's 
viewpoint is one as much of who we let in and who we manage to 
keep and whose interest we capture and whose children we 
excite, as it is as much who we keep out, because over time, 
the vibrancy of our economy is essential to our national 
security.
    And then finally, the experiment which is California. It's 
clear from the studies of the likes of Giovanni Peri and others 
that taking even the historical Borjas data set we know that 9 
out of 10 U.S. born native workers benefitted from 1990 to 2006 
to the tune of between 2 and 3 percent total wage growth 
because of immigration. One out of 10 did not. Those were high 
school dropouts and others in the same demographic category, 
but most everyone benefitted. We know that in California the 
story with the backdrop of more immigration is even stronger 
and more profound. And so we can discern from this that done 
correctly immigration benefits the average worker.
    Finally, and in summary I think that we must listen to the 
economy, acknowledge that it has been vibrant and successful 
and ask what part of that has been very important and one part 
was acknowledging the need for skilled and unskilled labor and 
to normalize what our laws say by allowing more people in to 
address that need and ensure continued economic growth.
    Thank you.
    [The prepared statement of Mr. Siciliano follows:]
                  Prepared Statement of Dan Siciliano
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    Mr. DeCell, thank you for coming today.

  TESTIMONY OF BRUCE DeCELL, MEMBER OF THE 9/11 VICTIMS FOR A 
 SECURE AMERICA (READING THE PREPARED STATEMENT OF MICHAEL W. 
 CUTLER, FORMER SENIOR SPECIAL AGENT OF THE INS, FELLOW AT THE 
                CENTER FOR IMMIGRATION STUDIES)

    Mr. DeCell. Thank you very much.
    ``Chairman Lofgren, Ranking Member King, Members of 
Congress, ladies and gentlemen; it is an honor and a privilege 
to''--I'm sorry--``it is an honor and a privilege to appear 
before this subcommittee. It is especially fitting to conduct a 
hearing about the past, present and future of immigration at 
this important historical location, Ellis Island. According to 
the Ellis Island Museum, from 1892 until 1954, this historic 
facility processed nearly 12 million aliens seeking to begin 
their lives anew in our land of freedom and opportunity.'' 
Being that I'm reading this for my, he says, ``My mother, in 
fact, was one of those who first set foot on American soil when 
she stepped off the ocean liner that brought her to the United 
States a few short years before the onslaught of the Holocaust 
that caused the death and suffering of so many millions of 
innocent people. My grandmother, for whom I was named, was one 
of the 6 million who was killed for no reason other than the 
fact that she was a Jew. My father was born in the United 
States but his parents and most of his siblings arrived at 
Ellis Island in 1908 from Russia seeking the freedom and 
economic opportunity that were not possible in their homeland.
    ``The United States was indeed built by immigrants and New 
York City is perhaps one of the most ethnically diverse cities 
in the entire United States of America. New York is not only an 
extremely diverse city; it is a city that celebrates its 
diversity with a great deal of passion. During the summer 
months there is rarely a weekend when there isn't a parade, 
street fair or food festival that celebrates the many different 
cultures, ethnicities and religions. Our nation is greatly 
enriched by this diversity, living up to its motto, E Pluribus 
Unum, `From one, many. From many, one.' I am nearly as proud of 
being a New Yorker as I am of being a citizen of the United 
States.
    ``However, as we celebrate the lawful immigration of people 
from all over the world who enter our nation in accordance with 
our laws, to share the `American Dream' I believe it is 
critically important that we distinguish between those aliens 
who enter our nation lawfully and those who enter our country 
in violation of law. Not long ago I sat in an auditorium at a 
college on Long Island, watching a series of panel discussions 
as I awaited my turn to participate in a discussion about 
immigration. I heard one of the speakers make a disturbing 
point. She said that in the old days immigrants came through 
Ellis Island, today they come across the Mexican border. That 
simple statement illustrated that the debate about immigration 
often loses sight of reality. Ellis Island was not simply a 
terminal where aliens arrived and then waited to catch a ride 
to some town in the United States. Ellis Island was a facility 
that provided immigration inspectors, public health officials 
and others the opportunity to screen those aliens who were 
seeking to enter the United States to enjoy a better life, a 
better way of life than was possible in their native countries. 
Simply arriving here was no guarantee of being admitted to the 
United States. Ellis Island was, in effect, America's waiting 
room.
    ``If there was a doubt that the arriving alien might harbor 
a dangerous communicable disease, that person was kept here as 
long as necessary, until public health officials could 
determine if that applicant for admission posed a health risk 
to our citizens. Similarly, Ellis Island provided law 
enforcement officials with adequate time to identify those who 
might be fleeing criminal prosecution in their homelands. In 
those days there were no computers that could assist with this 
vital issue.
    ``Today when aliens run our nation's borders without being 
inspected, the potential exists that these aliens may carry 
disease. These aliens may be fugitives from justice in their 
home countries who have extensive criminal backgrounds. In this 
perilous era, the potential also exists that these aliens may 
be involved directly or indirectly with terrorism. This is not 
a matter of xenophobia; it is a matter of common sense. Our 
nation needs to know who is entering or seeking to enter our 
country. At present it has been estimated that there are from 
12 million to twenty million illegal aliens in our country 
whose true identities are unknown and ultimately unknowable. 
Because they are undocumented, we cannot be certain of when 
they entered the United States and in fact, we cannot even be 
certain as to their true nationalities. The President has 
called for legalizing illegal aliens which would require our 
beleaguered adjudications officers at USCIS to suddenly have to 
confront many millions of applications for amnesty filed by 
aliens whose identities can not be verified. I fear that 
terrorists and criminals would seize this opportunity to 
acquire official identity documents in fictitious names in 
conjunction with such a guest worker amnesty program and use 
those documents as breeder documents to create new identities 
for themselves, obtaining driver's licenses, Social Security 
cards and other such documents. They could then use these 
officially issued documents to embed themselves in our country 
and also circumvent the various terror watch lists and so-
called no fly lists.
    ``I started out by telling you how proud I am to be a New 
Yorker. On September 11, 2001 the United States was attacked 
but the focal point for much of the destruction was the iconic 
World Trade Center complex that would have been easily visible 
from this island on which we are now conducting this hearing. 
Our nation needs to balance its desire to open its doors to 
legitimate visitors and immigrants with the need to protect our 
nation and our citizens from those who would come here and do 
us harm.
    ``Virtually all homes and apartments come equipped with a 
front door that has a peephole and a door bell. This is 
provided so that the responsible homeowner may determine 
whether or not to open his door to the stranger who shows up on 
his doorstep. For the United States, Ellis Island provided that 
peephole. Today millions of aliens enter our nation in 
accordance with law through many ports of entry. Many come for 
a temporary visit to engage in commerce, tourism, education or 
to visit a friend or family member. These visitors are 
inspected by an inspector of CBP who can attempt to determine 
the intentions of aliens seeking entry into the United States. 
It is a daunting job with a serious responsibility. I speak 
from experience because for the first 4 years of my career with 
the INS I worked as an immigration inspector at John F. Kennedy 
International Airport located not far from here.
    ``Other aliens enter our country as immigrants, seeking to 
reside in the United States permanently, contributing to the 
vibrant tapestry that comprises the United States of America.
    ``Of course, this inspection process is not without its 
failings and, indeed, it is estimated that perhaps as many as 
40 percent of the illegal alien population of the United States 
did not run our nation's borders but were admitted through the 
inspections process and then, in one way or another, violated 
the terms of their admission into the United States, either by 
overstaying the temporary period for which a nonimmigrant alien 
was admitted, accepting----''
    Ms. Lofgren. Mr. DeCell, you're about 6 minutes over. I 
wonder if you could summarize or leap to the end. It's hard 
when you're reading someone else's testimony, I know.
    Mr. DeCell. I'm sorry.
    Ms. Lofgren. That's all right.
    Mr. DeCell. In summary, what it boils down to is that it 
sounds nice to let everybody come into our country, but there 
are people out there who are going to do us harm and before we 
open up our doors, we have to secure our borders and make sure 
that the people are here that we know who they are and their 
documents are verified.
    [The prepared statement of Mr. Cutler follows:]
                Prepared Statement of Michael W. Cutler
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much and for filling in at the 
last minute.
    Mr. Martin, we're going to expect you to stay within the 5 
minutes.

TESTIMONY OF JACK MARTIN, SPECIAL PROJECTS DIRECTOR, FEDERATION 
                FOR AMERICAN IMMIGRATION REFORM

    Mr. Martin. Chairman Lofgren, Ranking Member King, Members 
of the Committee, this site here at Ellis Island is important 
in reminding us of our immigration history. Actually, we should 
remember that during a period of the development of our 
country, we didn't have an immigration policy. We had open 
borders. I think that it's also worthwhile remembering that 
during part of our history, the States actually recruited for 
immigrants, sending missions abroad to attract immigrants to 
this country. But the country changes and the needs of the 
country change. And immigration policy is a discretionary 
policy. It is set by our policy makers presumably to be in the 
national interest. And what is to be the best benefit of the 
country.
    The fact is that Ellis Island was a screening station. It 
was not intended to simply admit everyone, but rather to admit 
those people who by our policy we considered would be a benefit 
to the country and to exclude those who would--were not 
admissible under our laws. Our immigration policy has changed 
over time. The most recent reminder was this morning in reading 
in the Washington Post the Administration is apparently 
considering as part of its comprehensive immigration policy 
eliminating sibling reunification. We have to remember that the 
Jordan Commission in the mid-1990's recommended a significant 
reduction in legal immigration as well as new controls against 
illegal immigration. One of those recommendations was doing 
away with extended family reunification. Another was 
eliminating unskilled immigration. Yes, the number is only 
5,000, but we have more people in this country that are 
unemployed, under employed, seeking their first jobs than we 
have people illegally working in this country. We have to 
consider those people as well.
    My other major point that I would like to make is that it 
is important in any analysis of the effects of immigration on 
the United States to make a very clear distinction between 
those people who are admitted into the country legally pursuant 
to our immigration policies that have been designed in the 
national interest and those people who have come into the 
country outside of those immigration laws basically to suit 
their own interests whether it's economic advantage of taking 
advantage of gullibility of the American people.
    In particular, I would like to suggest that any study that 
lumps together legal immigrants and illegal immigrants, whether 
assessing education, assessing economic impact, assessing 
impact on crime rates, basically does a disservice to people 
who are legally admitted because those people have been 
subjected to screening. They're screened, for example, for 
previous criminal activities or the likelihood of engaging in 
criminal activities. I've done so myself as a consular officer 
abroad. I know how that works. Whereas those people who come 
into the country illegally are not screened. And they are much 
more likely to be attracted into some type of criminal 
activity, whether they came in for that purpose or not. And I 
don't mean to say that all people in the country illegally are 
involved in criminal activities. That certainly is not true. 
But my own studies have found that the incidents of criminal 
activities by those people who are in the country illegally is 
higher than those of the general public. And I would suggest 
that you can derive from that a conclusion that it is not 
irrational for a country or a community to want to screen out 
people who have come into the country not subject to our 
criteria of admission.
    And I know that there are communities across the country 
that have become increasingly concerned with regard to the 
settlement of people illegally residing in this country, not 
only because of the fact that they have seen association with 
crimes, but other fiscal impacts and other impacts that are 
harmful to their communities. And they, of course, are looking 
to the U.S. Congress to offer relief from this situation which 
has not been forthcoming thus far. But I think that if we take 
an accurate focus on how the United States has changed over 
time, what the economic needs of the country have changed over 
time, what those needs are at the present time, we will come to 
a more intelligent decision with regard to designing an 
immigration policy for the future.
    And lastly, I would simply note that during the period of 
time that we had restrictive immigration between 1914 and 1965, 
I don't know of any study that suggests that the United States 
was harmed economically, or militarily, or industrially.
    [The prepared statement of Mr. Martin follows:]
                   Prepared Statement of Jack Martin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you. Your time has expired. And we will 
now go to questions for the witnesses, noting that their full 
testimony is a part of the record and an important part it is.
    I will begin, and I'd like to talk first to Dr. Myers. Your 
entire testimony is very interesting to me and I plan to share 
it with the Administration and others who are looking at this. 
You mentioned that we face two decades of 30 percent increases 
in what you call the elderly burden, in other words, people 
like well, I was born in 1947, not the oldest Baby Boomer, but 
close to it, that basically I'm going to be looking to the 
younger people to work and pay my Social Security and in the 
sense that I hear you right, you're saying if we don't make 
sure we have an adequate flow of immigration when I'm in the 
nursing home, there's going to be no one to help me out with my 
dribble on the chin. Is that about right?
    Mr. Myers. Not quite. Certainly you need help in a nursing 
home, but you're going to need help with a lot more than that. 
I was reflecting that here we are on Ellis Island. I'm looking 
at my data. It's in a chart, Figure 1 in my testimony. And back 
in 1900, the heyday of Ellis Island's admissions, there was one 
senior, aged 65 and older for every 10 workers, aged 25 to 64. 
And then in the most recent decades, last three or four 
decades, it's been about 2.5 senior for every 10 workers. And 
coming up here in the next 10 years, and the next 20 years, 
we're going to 4 seniors for 10 workers. And that really alters 
the nature of America. We used to have just a lot of people at 
the bottom supporting the top. And now we're going to have a 
lot more people at the top expecting support from the bottom 
and it's going to really press us to deliver all the services 
that seniors need, not just nursing home attendants.
    Ms. Lofgren. And because of our birth rate, immigration can 
help ameliorate that phenomena.
    Mr. Myers. It won't solve the aging problem, but it can 
definitely make a contribution in maybe a quarter of solving 
the problem.
    Ms. Lofgren. Let me ask Mr. Siciliano, we appreciate your 
coming out as well all the way from California, you cite the 
work of the economist Giovanni Peri and many of us are from 
California. His study found no evidence that immigrants 
worsened the employment of native-born workers with similar 
educational experiences, and in fact, his study showed that 
between 1990 and 2004, immigration actually led to a 4-percent 
real wage increase for average native-born workers. Now people 
are worried about the impact of immigration on the wage rates 
of Americans. How could he find--what's going on here?
    Mr. Siciliano. Thank you. I think it's important to note 
that in the last five or 6 years our demographic and 
econometric tools, the way we look at data and how we analyze 
and how we isolate factors has improved tremendously and Dr. 
Peri is kind of leading that front.
    The reason, the difference, the way he concludes this fact 
that, in fact, wages are going up because of immigrants is by 
isolating the behavior of how small and medium size businesses 
invest capital. Obviously, it takes labor and capital to run a 
business and when you have constraints in both you have to make 
decisions. It turns out that our old models which kind of held 
capital as fixed and then we just fluctuated the labor and 
looked to see what would happen, were not the appropriate 
approach. In fact, we know in the real world what happens is 
small and medium size businesses, when they're faced with 
different opportunities for hiring different levels of skilled 
labor, alter their capital mix and optimize. The classic 
example is the same restaurant, same table, same cutlery has a 
dinner session, but can't do lunch because it can't find the 
right qualified people. With the right qualified people it adds 
lunch. That capital is more efficiently deployed and that 
business owner might then open another restaurant across town. 
Everyone grows and benefits and that's the insight from 
Giovanni Peri's work which supports that conclusion.
    Ms. Lofgren. Dr. Tichenor, your full testimony is wonderful 
and so--I learned so much reading it. As a matter of fact, it 
filled in some gaps in my own family history. Lots of times 
people say well, we're for immigration, but we want it to be 
the way it used to be. I hear that all the time, and many of us 
do in our districts. My grandmother actually was stuck with her 
mother and younger brother in Sweden for 13 years while her 
father earned enough money to send them second class. What--
explain how the immigration worked at that time in terms of 
first class, second class? What was the rejection rate at Ellis 
Island and put a little context in how was it the legal way 
then?
    Mr. Tichenor. What's interesting is that we had different 
tiers of admission. So that, for instance, if you came over on 
a steamship and you were riding in first class, you, in fact, 
didn't come through Ellis Island. You would actually have one 
of our agents who would come and inspect the passage 
information from the captain of the ship and you would go on 
your way. And it was, in fact, those who were in steerage 
class, who would then be funnelled through like my grandparents 
were funnelled through Ellis Island. We have from the very 
beginning a kind of a first class entry and a second class 
entry system. And if we add the undocumented experience today, 
I guess we have a third version.
    So one of the things that's quite striking is that when 
Ellis Island and other inspection stations and key ports of 
entry were in operation, the focus was on individual issues of 
whether we wanted to exclude someone for basically individual 
reasons, whether it was for health problems or clear signs of 
criminality and so forth. It was the great exception, in fact, 
to exclude someone under those conditions. And what became 
unfortunate is that our shameful national origins quota system 
that was enacted in 1924 created a system where we focused on 
groups and that's really where we went wrong. One of the 
effects of that was that families were separated. Those who 
came in, in the earlier part of this century, after the quotas 
were in place, the flow slowed to a trickle and as a result 
many families were separated for decades and it was very 
tragic.
    Ms. Lofgren. My time has expired, so I will turn now to Mr. 
King, the Ranking Member.
    Mr. King. Thank you, Madam Chair. I'd like to thank all the 
witnesses for their testimony and say it's a rare opportunity 
to have. I understand the security position the two witnesses 
have delivered here. So we're an opportunity to have in 
addition an historian, a demographer and an economist in front 
of me and try to put this together in 5 minutes to figure out 
how to solve this intractable problem.
    So I'm going to ask macro questions here and hopefully it's 
going to bring some illustrations. First of all, you mentioned, 
Mr. Tichenor, a xenophobic reaction and you talked about 
Franklin saying they will have Germanized us before we 
Americanize them. I'm going to ask a hypothetical then. Let's 
just say the Isle of Atlantis emerged and there were a billion 
people on the Isle of Atlantis and we decided we're going to 
take them all in in one fell swoop in a given year. They have a 
different language, a different culture, a different religion 
and they refuse to assimilate. Does it affect our culture?
    Mr. Tichenor. Oh absolutely. One of the punch lines for Ben 
Franklin was that, in fact, the Germans did help Germanize the 
United States as much as they were affected by the English 
population. So there was a blending. I'm sorry, you wanted----
    Mr. King. My point will be then is culture a part of this 
debate, this immigration debate, and is there is a missing 
component to the American culture that we should be reaching 
out, trying to fill? Is there a void like we might have an 
economic void that's in our culture, or would you conclude we 
have a fairly complete culture? What's missing?
    Mr. Tichenor. I don't think we're missing anything in our 
culture. I would say that we've always been a Nation becoming 
and so as such we've always added extra layers to it and if 
anything, those who are the biggest critics over time, of a new 
wave of immigrants bringing in a new culture that they find 
threatening, it's that they've been impatient with how long it 
takes, in fact, for newcomers to assimilate.
    Mr. King. So we'll conclude then that it is, that it can be 
overdone, that there is a pace that would be an appropriate 
pace. We just probably don't know that.
    Mr. Tichenor. I think that's correct, yes.
    Mr. King. And I thank you. And then Dr. Myers, the 
demography, the question I would have on the macro scale would 
be, I know you're familiar with the kind of chart that shows a 
different generation, the sizes of the generations, kind of 
like stacked checkers, one bigger, one smaller and we are Baby 
Boomers, pretty good sized checkers here. And so what is the 
optimum configuration of the generations of a society so that 
the younger generations can sustain the older generations? Is 
there a way to do this with a static population and get it 
right or are we always going to have to go for growth in order 
to meet it and at the bottom of this question is who is going 
to take care of the retirement of the millions of people whom 
you have proposed to bring in here to pay for the retirement of 
the people like the Chair and myself.
    Mr. Myers. That's some very good reasoning you have there. 
It's called a population pyramid and traditionally it's a 
pyramid shape, but the way it's evolving in Europe and North 
America is to more of a cylinder. But temporarily, we have a 
problem. Because we had so many kids in the Baby Boom----
    Ms. Lofgren. Could you pull the microphone a little bit 
closer? Thank you.
    Mr. Myers. Sorry, I didn't realize. We have a problem in 
that we had so many kids during the Baby Boom that now they're 
moving up into the elderly ranks, so where it should be 
tapered, it's bulging at the top. Our problem is the next 20 
years, sir. We have to get past the next two decades and absorb 
this bulge.
    Mr. King. But what's optimum?
    Mr. Myers. Optimum would be, I think if it was not top 
heavy, it was a little larger at the bottom, but you can't have 
optimum because whoever is in one age group moves up. So if you 
have two few kids, they move up and become two few workers. If 
you have too many kids, then you have too many workers.
    Mr. King. So if you exceed your growth, then you're locked 
in to having to continue to exceed your growth in order to 
adapt, unless you would have the kind of prosperity that will 
allow the senior people to take better care of themselves 
economically.
    Mr. Myers. In the long run, it will smooth out, but we have 
to get past the next 20 years. So all I'm saying is that this 
crunch that we're facing needs to be softened.
    Mr. King. And I understand that. Mr. Siciliano, then--and I 
read through your testimony with great interest. It's detailed 
and I appreciate the thought you put into it. My question comes 
back to it seems as though as you extrapolate this and use your 
dynamic model that there isn't a place where you have 
demonstrated in your testimony, at least, where you hit the law 
of diminishing returns. Where is that? Let's go to the billion 
people from the Isle of Atlantis who had come over here and 
work for a dollar an hour and consume $15 an hour. Where do you 
cross that line and can you produce for this Committee a matrix 
of how we could set up the optimum economic impact on America's 
economy by identifying the very best demographic of immigrants?
    Mr. Siciliano. I think it's hard to understand where that 
point comes. And you're right, you can't just extrapolate this 
argument to an infinite level. One thing we know with certainty 
is that if we look backwards and we say let's take a snapshot 
of the last 16 years. We have 1990 to 2006 data which is very, 
very good. And let's ask the question how many immigrants 
impacted the work force and the answer, depending on how you 
counted both documented and undocumented, ranges from 800,000 
to 1.4 million a year. And then we ask the question how did the 
economy do during that time? And the answer turns out to be 
really, really well, all things considered. We have deep 
resiliency and growing wages. And so one thing we can say with 
fairly high certainty without knowing what the upper bound is 
is to say that the mid-bound which is relatively safe and maybe 
even necessary is in the range of what we've experienced 
historically in the last 16 years and hence we need to alter 
the--if we all agree with the premise that all immigration 
should be legal and planned and deliberate and screened, then 
we need to alter what we're doing now to accommodate that 
historical trend.
    Mr. King. Thank you, Mr. Siciliano. And a very quick 
question then back to Dr. Tichenor. When General Winfield Scott 
was in Mexico and we signed the Treaty of Hidalgo in I believe 
1848, why didn't the United States when they were in the middle 
of Manifest Destiny just stay there? There must be a historical 
reason for that and I don't know the answer.
    Mr. Tichenor. I don't know. We can find out for you.
    Mr. King. I look forward to that and I thank the 
gentlelady, and yield back.
    Ms. Lofgren. Thank you, Mr. King. We'll now go to the 
gentleman from Illinois, Mr. Gutierrez.
    Mr. Gutierrez. Yes. The microphones. Well, thank you all 
for your wonderful testimony this afternoon. I'm going to go 
back to Dr. Tichenor. So if I were to say that in the 1840's, 
1850's, if we were in Boston, there might be news accounts 
about these immigrants that were coming to the United States 
that were hungry, not very well educated and apart from that 
could corrode or undermine our American way of life because 
they were Catholic and not White, Anglo-Saxon Protestant. Would 
that be correct?
    Mr. Tichenor. That's absolutely right.
    Mr. Gutierrez. And if it were the turn of the century, we 
were here in New York, we might even pick up the venerable New 
York Times and find someone accusing the Italian immigrants of 
coming here and undermining our society because somehow they 
had a suspect criminal element to them. Would that be correct?
    Mr. Tichenor. Right on target.
    Mr. Gutierrez. Okay, so if they were wrong about the Irish 
and they were wrong about the Italian immigrants as has been 
evidenced in the history of the United States, tell me how they 
won't be wrong making those same arguments about today's 
immigrants?
    Mr. Tichenor. We're obviously on the same wave length, as 
you know, from my testimony on this. And we make these mistakes 
all the time and one of the best funded, but poorly researched 
studies was the Dillingham Commission Reports which occurred in 
1911. You can go to the library and find 40 plus volumes there. 
It spent a record amount of money to investigate the question 
of these new immigrants. And they were focused particularly on 
Southern and Eastern Europeans at the time. And we carted out, 
I hate to say, our best social scientists and scholars on the 
issue, and we got it wrong.
    Mr. Gutierrez. And indeed, the history of America is 
replete with even political parties in and of themselves and 
political parties taking up the issues of immigration as a 
focal point of what they believe in and stand for and asking 
people to vote for them based on their immigration policy.
    Mr. Tichenor. Yes, that's right. And on occasion, parties 
decided to go in an anti-immigrant direction. The Whig Party, 
for instance, in 1844 with Henry Clay, and decided afterwards 
that they had gotten whipped badly by these new immigrants who 
had become assimilated into the political system quickly.
    Mr. Gutierrez. It's interesting because the Pew Research 
Group yesterday indicated to us that last year more people 
applied in unprecedented numbers, statistically speaking, 
unprecedented, for American citizens, that's legal, permanent 
residents. And I always tend to think that maybe that's come 
around again since let me see, in January, February and March 
of last year, the hits on the U.S. citizenship for petitions, 
let me see, for applications to become American citizens, just 
off the charts. I don't know maybe, we passed some very 
repressive legislation, anti-immigrant legislation, but I don't 
think it was their New Year's resolution from that immigrant 
community. So that's happened before.
    Mr. Tichenor. Yes, absolutely.
    Mr. Gutierrez. I mean in terms of immigrants playing a key, 
and changing the political dynamics in this country.
    I'd like to now go to Mr. Siciliano. I want to get this 
right. You're saying that the productivity of Americans workers 
is at an all-time high, that is, the people that are working 
are producing really well. They're very productive. And that 
those that can work are able to work, our labor participation, 
that is those that can work, have ample opportunity to--we've 
got lots of people working and very low unemployment in terms 
of them. But then we have this older population of people as we 
have. So I guess what you're saying is that workers that we've 
got working are working real well and most people who can and 
are able to work are working and our economy continues to 
expand at who's going to do that work?
    Mr. Siciliano. It looks like our short-run constraint is 
likely to be people to be labor. Because though our 
productivity does continue to advance, we become more 
productive every year and it is the source of our great wealth 
among other things. It isn't going to be four or 5 percent 
gains. It's going to be 2 percent, maybe 1.8 percent and that 
means you have to turn and find more people to produce the 
economic gains that we have and to work on the jobs. And the 
participation rates, we don't have the ability to have women 
join the work force or have others join the work force.
    Mr. Gutierrez. Let me ask you a question, so we know we 
need to secure our borders, and I know that we are going to 
find fundamental agreement among all the Members of the House 
of Representatives, we know we're going to do that. I think 
America, the tradition of immigration has always been based on 
the unity of families, so I don't think we're going to change 
that or there might be some attempt to change that, but in the 
end economic security is also a basic fundamental part of our 
immigration policy, and if we don't deal with new workers and 
having those workers, do we put at risk our economic security 
of this country?
    Mr. Siciliano. Economic security is arguably, in my 
opinion, the foundation of democratic stability and national 
security. Without economic security, everything starts to fall 
apart.
    Mr. Gutierrez. Thank you all so so much. I'm going to read 
all the other stuff that you put out in the books to read. 
Thank you.
    Mr. Siciliano. Thanks.
    Ms. Lofgren. Thank you, Mr. Gutierrez. We now turn to the 
gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, again, and thank all of the 
gentlemen for their testimony and might I offer to Mr. Cutler 
my best wishes. We've worked together in the past. So thank you 
so very much.
    The history of this building that we're in is, I think, 
complemented by the individual stories that you've heard most 
of the members, I believe all of the members of the panel, 
recount their immigrant histories, their grandparents, and I 
might note that you sense that we said it with a sense of 
pride. I think that is the downfall of the undermining of our 
basic values that we have demonized immigration, immigrants. We 
have labeled them and therefore it clouds the political process 
of getting to the right solution. For example, I always try to 
put on the record that immigration and in this city of such 
great history of the moment, dealing with 9/11, I still try to 
make clear that immigration does not equate to terrorism. And 
my good friend indicated that I don't think you could find one 
partisan divide on the question of securing the homeland, both 
the northern and southern border. There is no doubt.
    So once we get that on the table, and I don't see anyone 
here shaking their head saying no, I don't think we want to 
secure the homeland. We want these borders to be secure. Part 
of that is a system that works, that deals both with legal 
immigrants, because we don't need to reflect on 9/11 where some 
were statused or had visas and also those who may not be 
documented. Let's look at the holistic issue that we're 
confronting.
    Let me quickly then raise these questions with you and try 
to get this sense. First, Dr. Tichenor, and because of my 
opening remarks I beg of your indulgence for quick answers. 
We've been erratic in the United States Congress. We started 
probably way back in the 1800's and before, but 1924, I cited 
in my opening remarks we then said you know what, I don't want 
these Eastern Europeans, I don't want to these Asians, let me 
just stick with the Western Hemisphere. Then we came back in 
1965 and said okay, we've got an overload, let's go back to two 
hemispheres and then we'll let family members in. Would 
consistency and structure help us be more adaptable? Because 
what I'm asking you is we've been moved by politics, by 
emotion, by someone is taking my job, would we now need to look 
to this concept of comprehensiveness so that it can be a 
breathing law that grows with America?
    Mr. Tichenor. I think absolutely and to give one quick 
example, one of the sources for undocumented immigration are 
the huge backlogs in terms of reunited families. And so----
    Ms. Jackson Lee. Not that we have that policy as a 
suggestion by the Administration, we'll cut down on reuniting 
families, but let me not interrupt. Go right ahead.
    Mr. Tichenor. The quick point is simply that decoupling 
these aspects of our immigration policy between cracking down 
on porous borders and on undocumented immigration from legal 
immigration preferences is I think one of those examples of 
inefficiency.
    Ms. Jackson Lee. And I want to just emphasize that we had a 
1924 bill that shut down on the Europeans and Asians and we 
went back to 1965, we changed it again. And we went to 1986 and 
we got something that everybody calls amnesty, and it's a 
bitter taste in some of our Members and others that have 
different perspective. But coming now, Dr. Myers, full circle, 
let it be clear that those of us who are looking at 
comprehensive now are starting out with English even before the 
citizenship track. I think that should be well noted. And I 
just--your demographics, and I want to just raise this quick 
question about the fact of more foreign doctors and nurses 
which have become a source, a needed source, but can't we 
parallel that, and Mr. Siciliano, would you comment, too, 
because I see the yellow light on. Can't we parallel the need 
for foreign nurses and doctors in this instance? I think that's 
been proven that our numbers have gone down, with the idea of 
investing in American workers by way of training and otherwise, 
so that immigration does not equate to my job being lost 
because there's certainly a dearth of professions or trained 
persons in a lot of the areas that immigrants are in, besides 
the unskilled, nurses, doctors, because you have the 
professionals saying I'm losing my job. How do we match the 
engine of immigration with making sure Americans have jobs and 
retain jobs?
    Mr. Myers. Well, we have this shortage of workers that's 
coming up because of the retirements. And we have some 
neglected youth who we could train up. And I think as part of 
this package, it would be good to think about how do we invest 
in the youth we have here today now, because the more they can 
fill those jobs, you wouldn't need to have, import so many 
doctors, perhaps.
    Ms. Jackson Lee. Nurses.
    Mr. Siciliano. I think that's exactly right. It's a 20-year 
plan and we need to have a plan for Year 0 through 20 and we 
need to begin investments so that after Year 20, it starts to 
pay off. And I think it really does have to be a comprehensive 
approach, and it's not a displacement. It is complementary, an 
augmentation. If people can't be taken care of and be made 
healthy and if health care becomes too expensive, that offsets 
other pieces of the economy, so we have to take care of that 
now, not just in 20 years.
    Ms. Jackson Lee. And so training American workers is also a 
component of the economic----
    Mr. Siciliano. It's not mutually exclusive. In fact, you 
almost, at a certain level with the nursing shortage, have to 
make sure you have immigrants available so that you have 
sufficient training staff. Our shortage has become so critical 
that you almost can't secure the next generation of nurses.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Ms. Lofgren. The gentle lady's time has expired. And we 
will go to our last questioner, the gentlelady from California, 
Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair, and thank you to all 
of the witnesses. I don't know when I've been so excited about 
the information that I've received from a congressional panel, 
so I have to say you've all done an excellent job.
    I want to start my questions with Mr. Siciliano. Lower-
skilled immigrant workers tend to be over-represented in 
certain industries, agriculture, for example, landscaping, 
textile, etcetera. I'm interested in knowing if you could tell 
us what would be the economic impact if we restricted immigrant 
labor in those industries?
    Mr. Siciliano. I think a lot of people wonder if the impact 
would be that wages would simply go up, right, because people 
wouldn't be available, so they'd have to pay more wages and you 
would get higher wages in those industries. We know from 
empirical evidence that that probably isn't the case. The 
bottom line is many industries would become non-viable and 
after initial spike in inflation related to those industries, 
the industries themselves would probably go away. People would 
simply not be able to access landscapers, and the like.
    The long run is a little more complex, but in the short run 
I think it would collapse those industries.
    Ms. Sanchez. One of the arguments that is often used 
against immigrants coming to this country is that they take 
American jobs away from American workers, and something that I 
am familiar with, both with experiences my family has had and 
constituents that I represent, is that folks that are in the 
country in undocumented status often work for the lowest wages 
and in the most dangerous or inhumane working conditions. How 
would this country--what would the economy look like if people 
who are currently working in an undocumented status could get 
their citizenship and would pay taxes on their wages and the 
underground economy didn't exist? If we could clean that up 
through getting these folks into a legal, viable work program?
    Mr. Siciliano. That's a hard question, but I think one 
thing that can be said is that we'd be benefitted by the fact 
that there are people in the economy, particularly undocumented 
workers who are sometimes taken advantage of and where wage and 
hour rules are not applied correctly, where OSHA rules are not 
applied correctly. By bringing those people into the regular 
economy, we can enforce that more aggressively and any worker 
who takes advantage and violates these now should be stopped 
and punished. I think everyone generally agrees with that, but 
this would make that easier.
    And in the long run it would also make it easier for the 
children of these immigrants, and this is important, to 
continue what we refer to as the virtuous cycle of climbing up 
the economic and social ladder of the United States. Right now, 
the underground economy such as it is may make that harder 
which I think a dangerous trend which should be interrupted.
    Ms. Sanchez. Okay, Dr. Myers, this sort of dovetails very 
nice into that last point. In your written testimony, you state 
that immigration has a role to play with respect to the aging 
Baby Boomer crisis, but you also state that those who are 
already settled and becoming incorporated into our communities 
can provide even more assistance. I'm intrigued to know what 
you mean by this and comparatively speaking, compared to other 
countries, how has America fared in trying to integrated 
immigrants and allow them to rise up the economic ladder?
    Mr. Myers. Let me just take that last question first, if I 
may. I don't know any other country on the planet where some of 
the poorest immigrants that they bring to the country can 
become home owners after 20 years. The fact that over half of 
Latino immigrants in California, a high priced State, become 
home owners is astounding. It's not possible in Germany or 
France or any of those other countries.
    The beauty of immigration is that immigrants don't remain 
constant. They're not frozen in time. And as they settle in, 
they develop this power, this upward mobility that invigorates 
our whole economy. The housing market in California is 
notorious for its high prices and you wonder how do immigrants 
survive in that. They buy at the bottom of the market and it's 
through their energies that they push up the market from the 
bottom and the person in Beverly Hills then has the high priced 
house supported by the infrastructure of all these small owners 
at the bottom. It's that energy of immigrants who are settling 
in and incorporating and they're working their way up the 
ladder that pushes up the economy from the bottom. And I think 
that we shouldn't think about immigrants coming in new and all 
of a sudden playing that role. It's when they get settled on 
the ground or their children and then they come up from the 
bottom that that's the real advantage.
    Ms. Sanchez. Okay, I have one last question. I wonder if 
you could speak to the changing settlement patterns of new 
immigrants. Do they generally help rejuvenate communities with 
shrinking populations, or do they simply push out native born 
workers out of those communities?
    Mr. Myers. Well, there are a class of Americans who wish 
they had some immigrants coming to their town. But immigrants 
really only go where there's job opportunities that are 
growing. For example, in Texas, Houston is the mecca for 
immigration, not San Antonio, which has the most Mexican-
Americans, but it doesn't have the job growth. And so 
immigrants gravitate to where the new openings are, not where 
existing workers are they're pushing aside. They really a 
growth oriented.
    Ms. Sanchez. Thank you.
    Ms. Lofgren. Well, thank you very, very much. I would like 
to thank all of the witnesses for their testimony today. 
Without objection, Members will have five legislative days to 
submit any additional written questions for you which we will 
forward and ask that you answer as promptly as you can to be 
made part of the record and without objection, the record will 
remain open for five legislative days for the submission of 
other additional materials.
    I would just like to close by thanking not just the 
witnesses for truly exceptionally fine testimony, but for 
members of the public who have sat here with us, to listen. You 
are sitting on the benches that the immigrants sat on waiting 
to be called when they were here at Ellis Island. We thank you 
for listening and participating in that way. I'd like to thank 
also the Park Service and the Border Patrol for their wonderful 
participation.
    I'd like to thank the staff of the Committee on both sides 
of the aisle for their hard work in making this hearing 
possible at such a wonderful and historic place and I would 
like to thank the Members of the Committee for coming up here 
this morning from Washington, so that we could help illuminate 
the numerous issues that concern us in our wonderful country, 
both in the past, in the present, so that we can create a 
future for America that's as vibrant and exciting and 
prosperous as our wonderful history has been. So with that, 
this hearing is adjourned with thanks to all.
    [Whereupon, at 1:25 p.m., the hearing was concluded.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Prepared Statement of the Honorable Michael Chertoff, Secretary, 
                  U.S. Department of Homeland Security
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
